<html>
<title> - HEARING ON SUSTAINABLE WASTEWATER INFRASTRUCTURE</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




                 SUSTAINABLE WASTEWATER INFRASTRUCTURE

=======================================================================

                                (111-5)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 4, 2009

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure






                  U.S. GOVERNMENT PRINTING OFFICE
47-258 PDF                WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
ELLEN O. TAUSCHER, California        TODD RUSSELL PLATTS, Pennsylvania
LEONARD L. BOSWELL, Iowa             SAM GRAVES, Missouri
TIM HOLDEN, Pennsylvania             BILL SHUSTER, Pennsylvania
BRIAN BAIRD, Washington              JOHN BOOZMAN, Arkansas
RICK LARSEN, Washington              SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
TIMOTHY H. BISHOP, New York          JIM GERLACH, Pennsylvania
MICHAEL H. MICHAUD, Maine            MARIO DIAZ-BALART, Florida
RUSS CARNAHAN, Missouri              CHARLES W. DENT, Pennsylvania
GRACE F. NAPOLITANO, California      CONNIE MACK, Florida
DANIEL LIPINSKI, Illinois            LYNN A WESTMORELAND, Georgia
MAZIE K. HIRONO, Hawaii              JEAN SCHMIDT, Ohio
JASON ALTMIRE, Pennsylvania          CANDICE S. MILLER, Michigan
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
HEATH SHULER, North Carolina         VERN BUCHANAN, Florida
MICHAEL A. ARCURI, New York          ROBERT E. LATTA, Ohio
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico

                                  (ii)

  


            Subcommittee on Water Resources and Environment

                EDDIE BERNICE JOHNSON, Texas, Chairwoman

THOMAS S. P. PERRIELLO, Virginia     JOHN BOOZMAN, Arkansas
JERRY F. COSTELLO, Illinois          DON YOUNG, Alaska
GENE TAYLOR, Mississippi             JOHN J. DUNCAN, Jr., Tennessee
ELLEN O. TAUSCHER, California        VERNON J. EHLERS, Michigan
BRIAN BAIRD, Washington              FRANK A. LoBIONDO, New Jersey
TIMOTHY H. BISHOP, New York          GARY G. MILLER, California
RUSS CARNAHAN, Missouri              HENRY E. BROWN, Jr., South 
STEVE KAGEN, Wisconsin               Carolina
DONNA F. EDWARDS, Maryland           TODD RUSSELL PLATTS, Pennsylvania
SOLOMON P. ORTIZ, Texas              BILL SHUSTER, Pennsylvania
PHIL HARE, Illinois                  MARIO DIAZ-BALART, Florida
DINA TITUS, Nevada                   CONNIE MACK, Florida
HARRY TEAGUE, New Mexico             LYNN A WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   CANDICE S. MILLER, Michigan
Columbia                             ROBERT E. LATTA, Ohio
MICHAEL E. CAPUANO, Massachusetts    ANH ``JOSEPH'' CAO, Louisiana
GRACE F. NAPOLITANO, California      PETE OLSON, Texas
MAZIE K. HIRONO, Hawaii
HARRY E. MITCHELL, Arizaon
JOHN J. HALL, New York
PARKER GRIFFITH, Alabama
BOB FILNER, California
CORRINE BROWN, Florida
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)















                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Brown, Jeanette A., P.E., BCEE, D.WRE, Executive Director, 
  Stamford Water Pollution Control Authority.....................     8
Brown, Rich, Environmental Scientist, Environmental Energy 
  Technologies Division, Lawrence Berkeley National Laboratory...     8
Fahlund, Andrew, Vice President for Conservation, American Rivers     8
Mclean, Brian, Director, Office of Atmospheric Programs, Office 
  of Air and Radiation, U.S. Environmental Protection Agency, 
  accompanied by Caterina Hatcher, National Manager, Energy Star, 
  Public Sector, Office of Air and Radiation, U.S. Environmental 
  Protection Agency..............................................     8
Mehan, III, G. Tracy, Principal, the Cadmus Group, Inc...........     8
Zelenka, Alan, Consultant, Kennedy/Jenks Consultants.............     8

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    45
Costello, Hon. Jerry F., of Illinois.............................    46
Mitchell, Hon. Harry E., of Arizona..............................    48

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Brown, Jeanette A................................................    49
Brown, Rich......................................................    63
Fahlund, Andrew..................................................    72
Mclean, Brian....................................................    88
Mehan, III, G. Tracy.............................................    93
Zelenka, Alan....................................................    97

                        ADDITIONS TO THE RECORD

Water Environment Research Foundation, Glenn Reinhardt, Executive 
  Director, written statement....................................   107


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
            HEARING ON SUSTAINABLE WASTEWATER INFRASTRUCTURE

                              ----------                              


                      Wednesday, February 4, 2009

                  House of Representatives,
    Committee on Transportation and Infrastructure,
           Subcommittee on Water Resources and Environment,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eddie 
Bernice Johnson [Chairwoman of the Subcommittee] presiding.
    Ms. Johnson. I call the Subcommittee to order and welcome 
everyone to the first meeting of the Subcommittee on Water 
Resources and Environment for the 111th Congress.
    Today, the Subcommittee meets to explore water-efficient 
and energy-efficient technologies that can be incorporated into 
the Nation's system of wastewater infrastructure to improve the 
overall cost-effectiveness of modern wastewater treatment as 
well as promote sustainability.
    However, as this is the first meeting of the Subcommittee 
this Congress, I believe this is a good opportunity to outline 
our near-term agenda as well as our efforts to address many of 
the water resource challenges of the Country.
    First, let me say how pleased I am to return as the 
Chairwoman of the Subcommittee on Water Resources and 
Environment, and I look forward to serving on this Subcommittee 
with each and every colleague--and before the meeting is over 
most of them will probably be here--learning of their 
individual water resource needs and working together to address 
many of their concerns.
    I am also very pleased to be rejoined by my colleague, 
Congressman John Boozman of Arkansas, the Ranking Republican 
Member of the Subcommittee on Water Resources and Environment.
    The Subcommittee has the broadest agenda of any 
transportation Subcommittee. Generally speaking, the 
Subcommittee is responsible for the Corps of Engineers' 
projects and authorities, EPA's Clean Water and Superfund 
programs, brownfields, the Tennessee Valley Authority, the St. 
Lawrence Seaway and programs carried out by the National 
Oceanic and Atmospheric Administration and the Natural 
Resources Conservation Service.
    Similar to last Congress, the Subcommittee will continue to 
have an active agenda and explore many of the water resources 
and environmental challenges faced by our Nation. In addition, 
the Subcommittee will explore how the infrastructure 
authorities under its jurisdiction are critical in restoring 
both the economic and environmental health of the nation.
    Starting with today's hearing, the Subcommittee will return 
to some of the unfinished work of the previous Congress. My 
plan is to expeditiously move legislation on the Clean Water 
State Revolving Fund and to report a bill similar to the Water 
Quality Financing Act of the 110th Congress to the House floor 
before the Spring district work period.
    In addition, the Subcommittee will quickly reconsider other 
bipartisan legislative proposals from the previous Congress 
that were not enacted into law, such as the Beach Protection 
Act, the Sewer Overflow Community Right to Know Act and 
legislation to reauthorize appropriations to address combined 
sewer overflows and alternative sources of water.
    This year, the Subcommittee will also start the process for 
drafting a new Water Resources Development Act for the Corps of 
Engineers, and, to that end, I encourage my colleagues to 
consider their individual water resources challenges and 
whether these could be addressed by the Nation's leading water 
resource agency, the Army Corps of Engineers.
    And finally, the Subcommittee will continue its oversight 
responsibility and should soon announce hearings on the 
forthcoming Report of the National Committee on Levee Safety as 
well as recent events surrounding and future prospects for the 
Tennessee Valley Authority.
    In his inaugural address, President Obama challenged us 
all, and he asked us, both citizens and policy makers, to seek 
opportunities in the trying times before us. And they are 
trying.
    Over the past year, it has been very clear that there is a 
heightened need for government action. Nowhere is this more 
clear than with regards to infrastructure spending. Against a 
backdrop of huge gaps in water infrastructure spending, 
investment in the Nation's wastewater systems provides jobs and 
results in cleaner rivers and a healthier public.
    But to paraphrase the President, to say that government is 
the only answer is to be as wrong as saying that government is 
the problem. These positions miss the point entirely. Instead, 
we must ask how we can make government work to efficiently and 
effectively address our Nation's problems.
    And so, it is on this point that we should seize the 
opportunity to solve our multifaceted problems by enabling the 
Federal Government to be an agent of change. Economic recovery 
resources should not just be used to simply provide jobs. 
Instead, these resources can and should also be vehicles for 
long-term economic growth and environmental sustainability.
    It is in our national interest to incentivize wastewater 
treatment facilities so that their operators make them more 
sustainable, more energy-efficient, more water-efficient, to 
encourage stormwater mitigation and to use green planning, 
design and construction.
    In today's hearing we will hear testimony from our 
witnesses on sustainable technologies and approaches in the 
wastewater treatment sector. Much of this technology and many 
of these approaches are not yet utilized or even widely 
considered across the wastewater system. But promoting a 
sustainable wastewater infrastructure not only yields desired 
environmental results but promotes a market for advanced 
energy-and water-efficient technologies.
    Members of the Subcommittee, when it comes to this issue, 
we can all do it all. We can reclaim our responsibility for 
building our wastewater infrastructure while at the same time 
spending our resources more wisely. We can achieve cleaner 
water while expending less energy, releasing fewer greenhouse 
gases, conserving water and encouraging the development of 
technology and a resurgence of our manufacturing sector.
    And all of this means that localities across this country, 
across the long term, have lower costs, critical in this 
economic crisis.
    These approaches make environmental sense, and they make 
sense to our bottom lines. This is a way forward that I think 
we would all want to take.
    I thank you, and I yield now to the Ranking Member, Mr. 
Boozman of Arkansas.
    Mr. Boozman. Thank you, Madam Chair, and it really is an 
honor to serve with you again in this Congress, and I very much 
appreciate your leadership.
    Today, the Subcommittee begins to explore a new and 
important topic: sustainable wastewater infrastructure.
    Ignored in the past, more public attention is slowly being 
paid to our deteriorating water infrastructure. Our Nation's 
health and quality of life and economic well-being rely on 
adequate wastewater treatment. Industries that rely on clean 
water--like farmers, fisherman, manufacturers--contribute over 
$300 billion a year to our gross domestic product.
    To provide clean water, our Nation already has invested 
over $250 billion in wastewater infrastructure, but this 
infrastructure is now aging and as our population continues to 
grow increasing the burden on our existing infrastructure. If 
communities do not repair, replace and upgrade their 
infrastructure, we could lose the environmental health and 
economic benefits of this investment.
    The Congressional Budget Office, EPA, and Water 
Infrastructure Network have estimated that it could take 
between 300 and 400 billion dollars to address our Nation's 
clean water infrastructure needs over the next 20 years to keep 
our drinking water and waterways safe and clean. This is twice 
the current level of investment by all levels of our 
government. These needs have been well documented in our 
Subcommittee's prior hearings.
    We can reduce the overall cost of wastewater infrastructure 
with good asset management, innovative technologies, water 
conservation and reuse and regional approaches to water 
pollution problems. One of the methods to reduce the cost of 
wastewater infrastructure and, ultimately, wastewater 
treatment, is to explore alternatives to traditional designs 
and technologies.
    Efforts to contribute to a long-term sustainability of 
water infrastructure by reducing operating cost, making 
facilities more energy-efficient and more water-efficient could 
result in a greater environmental improvement and reduce costs 
to ratepayers.
    According to the Department of Energy, water utility energy 
consumption accounts for 30 to 60 percent of an average city's 
energy costs. The EPA notes that approximately $4 billion is 
spent annually for energy costs to upgrade water supply and 
wastewater treatment facilities. A 10 percent in energy usage 
could save these utilities $400 million annually.
    Other industries have already begun either retrofitting 
current operations or constructing new facilities using 
alternatives technologies. It is not unreasonable to expect the 
wastewater treatment industry to follow suit.
    Water efficiency, permeable membranes, reforestation, fuel 
cells, hydroturbines and photovoltaic cells are the types of 
proposals many of our witnesses will discuss today. Green roofs 
and rain gardens are other approaches that may help us reduce 
stormwater runoff, and these methods are being introduced to 
urban areas where runoff is especially prevalent.
    However, in our efforts to be energy-efficient, we must not 
lose sight of the cost of implementing new designs and 
technologies. The costs are not limited to just purchasing new 
equipment. There must be adequately trained personnel to 
install and operate new technologies. Another consideration is 
the cost of source material and the inflationary impact of the 
supply and demand of the source materials.
    In the past three decades, this Nation has made significant 
progress in cleaning up our rivers and lakes, but there is 
still much to be done.
    We must be sure that with the limited funds we have we are 
getting the most clean water for our dollar. These new types of 
proposals and technologies could result in numerous economic 
and environmental benefits. However, communities need to do a 
rigorous analysis of the cost and benefits of installing these 
technologies and decide for themselves the most appropriate 
course of action.
    I hope to learn more from the hearing today, from this 
panel of expert witnesses, and we really do appreciate your 
being here, and I look forward to your testimony.
    I yield back, Madam Chair.
    Ms. Johnson. Thank you very much.
    We will now go to the Members of the Committee for 
comments.
    Ms. Edwards is recognized.
    Ms. Edwards. Thank you, Madam Chairwoman and to the Ranking 
Member.
    I appreciate all of you being here today.
    I think it goes without saying, and certainly we have 
learned this over the last several years, that it is really 
important to reinvest in the Nation's water and wastewater 
infrastructure.
    In my congressional district, which is just outside of 
Washington, D.C., you have only to read the headlines to know 
the impact on our wastewater systems when a water main breaks, 
a pipe breaks, there is a problem from transmission forward 
resulting in boiled water advisories, pollutants in the water 
such as lead and other particulates that are impacting our 
children and our communities, that we can no longer afford the 
nearly decades long of disinvestment in the Nation's wastewater 
infrastructure. And the costs are huge.
    And so, the opportunity that we have now is to look at the 
kinds of technologies that, with the right kind of investment, 
the right kind of science and research into those investments, 
can both bring costs down, make them affordable for communities 
and for taxpayers and, at the same time, propel us into a 
national 21st Century water infrastructure instead of I don't 
know in some cases. I know when the water main broke outside of 
my house, they said it was a young one, and it was 30 years 
old.
    So we have tremendous opportunity in front of us, and I 
look forward to your testimony and to hearing ways in which we 
can make investments that aren't just where we live.
    I mean the investments that we make in the Washington 
Metropolitan Area in water and sewer infrastructure deeply 
impact the Chesapeake Bay and the entire Bay watershed. And so, 
it is no longer the case, that as taxpayers and community 
members, that we can believe that it is only important to do 
what you need to do at home because the impact is so much 
greater for so many more communities.
    And again, thank you for being here, and I look forward to 
your testimony.
    Ms. Johnson. Thank you very much.
    Mr. Baird.
    Mr. Baird. I thank the gentlelady.
    I thank our witnesses.
    In the area of energy conservation or meeting our energy 
challenges, we have seen a great deal of evidence that 
oftentimes behavioral changes and conservation measures are the 
most economical way to proceed in meeting those challenges.
    I would be very interested in the panel's observations in 
terms of what we can do behaviorally rather than just building 
new plants. What can we do in terms of changing how we consume 
water, how we produce wastewater, simple measures like 
composting versus sending things down the garbage disposal?
    I would especially welcome your insights into how we can 
save money and improve environmental outcomes by changing the 
way we conduct ourselves.
    I thank the Chairperson.
    Ms. Johnson. Thank you very much.
    Mr. Cao.
    Mr. Cao. Thank you, Madam Chairwoman.
    After Katrina, the New Orleans Metropolitan Area was pretty 
much devastated by the flooding, and much of the sewage and 
wastewater system was severely damaged. We have estimated that 
it would cost approximately $800 million in order to upgrade 
and to repair many of the problems in the system of the Second 
Congressional District.
    So I am very much interested in hearing what technologies 
are out there, what we can do to improve the system down there, 
especially in areas that may be affected by the floodwaters 
especially saltwater from the Gulf of Mexico.
    So thank you very much. I look forward to hearing from you 
all.
    Ms. Johnson. Thank you very much.
    Mr. Perriello.
    Mr. Perriello. Thank you, Madam Chairwoman and Ranking 
Member.
    Thank you so much to all of our witnesses here today 
testifying.
    Joining the Subcommittee was my first choice of all of them 
in Congress because it is such a big priority for my area, and 
it is also a place that is very real for the people in my 
district whether that is the county administrator, the farmer, 
the business leader.
    I come from a district, central and south side Virginia, 
where we have hit 15.5 percent unemployment in several of our 
small towns. We have been wiped out on manufacturing, on 
tobacco, on textiles, and we have started to reach a point 
where the water infrastructure is not only a barrier to 
bringing new business in, but we have also had to have work 
stoppages based on crumbling infrastructure.
    And the few companies that have stuck with us can't keep 
that up if we can't keep basic water and other needs getting to 
them. This is a huge issue for job creation in my district as 
well as the environment and agriculture and other areas.
    I was also excited to work on this Committee because I know 
it is a bipartisan Subcommittee and I know it is a hardworking 
Subcommittee. So we are very, very eager to get to work.
    When we are losing 16,500 jobs every day in this Country, 
we know we have to do things that get people to work right 
away, like rebuilding infrastructure but also doing it on 
things that are going to be an investment in our future.
    And I believe this is a great area for us to show 
leadership--you as experts, us as representatives--and I look 
forward to working with you to see what we can do to turn it 
around.
    Thank you very much.
    Ms. Johnson. Thank you very much.
    Mr. Carnahan.
    Mr. Carnahan. Thank you, Madam Chairman and Ranking Member 
Boozman.
    I represent a district in St. Louis where the metropolitan 
sewer district has 208 locations where combined sewer overflows 
can occur, discharging into the Mississippi River and River des 
Peres and their tributaries. This overflow often, too often, 
contains impurities that have the potential of adversely 
affecting the water quality in the area.
    But I am especially interested today to hear from the 
witnesses about how green infrastructure can help reduce the 
volume of stormwater before it enters the sewage and stormwater 
system and preventing the occurrence of combined sewer 
overflows: technologies like green roofs, pervious paving for 
roads, alleys and parking lots and how that can really make an 
impact.
    I just want to close by thanking our entire panel, but 
especially I want to welcome Tracy Mehan, the former director 
of our Department of Natural Resources in Missouri. I look 
forward to hearing from all of you and welcome Mr. Mehan.
    Ms. Johnson. Thank you very much.
    Mr. Bishop.
    Mr. Bishop. Thank you, Madam Chair, for holding this 
hearing, and I thank today's panelists for appearing before us.
    As those of us on this Committee know, water infrastructure 
is absolutely necessary for sustainable economic development, 
and yet it is given little praise and oftentimes little thought 
by the public and many elected officials. Perhaps this is due 
to the fact that, unlike roads or bridges, we cannot point to 
sewer pipes and treatment facilities as easily as we can marvel 
at our bridges or our highways. However, each is equally 
important to ensuring that commerce can flourish.
    Even some in Congress do not fully appreciate the necessity 
of water infrastructure. The Congressional Budget Office 
estimates that there is an annual, I repeat, annual investment 
need of between $11.6 billion and $20.1 billion to ensure a 
safe, clean supply of drinking water and an additional need for 
annual investment of between $13 billion and $20.9 billion in 
wastewater treatment.
    This Committee understands the critical need for increased 
funding and supported levels of $12 billion for the Clean Water 
State Revolving Fund in the economic recovery package. 
Unfortunately the House-passed bill including only $6 billion 
for water infrastructure.
    I offered an amendment to increase funding for the Clean 
Water SRF by $6 billion to the Committee-proposed levels. 
However, this amendment was not accepted.
    Our Nation is facing perilous economic times. We cannot 
afford to shy away from investments that will have lasting 
effects on our communities and our economy simply because we 
can't see them.
    I look forward to working with my colleagues to promote 
increased awareness of the importance of water infrastructure 
and to ensure that our adequate funding is available to States 
and to municipalities to strengthen and expand our economy.
    I thank the Chairwoman, and I yield back.
    Ms. Johnson. Thank you very much.
    Mr. Hare.
    Mr. Hare. Thank you, Madam Chair, and thank you very much 
for holding the hearing and my appreciation also to the Ranking 
Member.
    I worked very hard to get on this Committee and on this 
Subcommittee. I have a district that has 250 miles on the 
Mississippi River that runs north-south and 23 counties, many 
of them rural with a number of communities that have serious 
problems with water and sewer, including my home town of Rock 
Island, Illinois.
    So I am looking forward to the panel today. I am looking 
forward to working on this Committee.
    As my colleague had said, I wish we could have spent a 
little bit more money on the infrastructure end of it, but we 
will come back, I am sure.
    But, again, I look forward to hearing you all today, and I 
appreciate your being here.
    We have a great Committee, and I am just honored to be on 
it.
    So thank you very much, Madam Chair.
    Ms. Johnson. Thank you very much.
    Any other opening statements?
    We will now go to the panel.
    The morning's panel of witnesses consists of Mr. Tracy 
Mehan from the Cadmus Group. Mr. Mehan is a former EPA 
Assistant Administrator for Water. And we welcome you back.
    We will then hear from Mr. Brian McLean. Mr. McLean is 
Director of EPA's Office of Atmospheric Programs in the Office 
of Air and Radiation, and he is accompanied today by Ms. 
Caterina Hatcher, the National Manager of the Public Sector 
ENERGY STAR program at EPA.
    And next, Mr. Rich Brown from the Lawrence Berkeley 
National Laboratory in California will testify.
    And following Mr. Brown is Ms. Jeanette Brown, the 
Executive Director of the Stamford Water Pollution Control 
Agency in Stamford, Connecticut, and Ms. Brown is testifying on 
behalf of the Water Environment Federation.
    We will then hear from Mr. Alan Zelenka from Kennedy Jenks 
Consulting in Eugene, Oregon. Mr. Zelenka is testifying on 
behalf of the Oregon Association of Clean Water Agencies.
    And our final witness this morning is Mr. Andrew Fahlund. 
He is the Vice President for Conservation at American Rivers.
    Your full statements will be placed in the record, and we 
ask that you try to limit your oral statements and your 
testimony to five minutes as a courtesy to other witnesses.
    Again, we will proceed in the order in which the witnesses 
are listed. So, Mr. Mehan.

TESTIMONY OF G. TRACY MEHAN, III, PRINCIPAL, THE CADMUS GROUP, 
 INC.; BRIAN MCLEAN, DIRECTOR, OFFICE OF ATMOSPHERIC PROGRAMS, 
  OFFICE OF AIR AND RADIATION, U.S. ENVIRONMENTAL PROTECTION 
   AGENCY ACCOMPANIED BY CATERINA HATCHER, NATIONAL MANAGER, 
 ENERGY STAR, PUBLIC SECTOR, OFFICE OF AIR AND RADIATION, U.S. 
  ENVIRONMENTAL PROTECTION AGENCY; RICH BROWN, ENVIRONMENTAL 
SCIENTIST, ENVIRONMENTAL ENERGY TECHNOLOGIES DIVISION, LAWRENCE 
 BERKELEY NATIONAL LABORATORY; JEANETTE A. BROWN, P.E., BCEE, 
  D.WRE, EXECUTIVE DIRECTOR, STAMFORD WATER POLLUTION CONTROL 
AUTHORITY; ALAN ZELENKA, CONSULTANT, KENNEDY/JENKS CONSULTANTS; 
 AND ANDREW FAHLUND, VICE PRESIDENT FOR CONSERVATION, AMERICAN 
                             RIVERS

    Mr. Mehan. Thank you, Madam Chair and Members of the 
Committee.
    It is an honor to be part of this very distinguished panel, 
and I know many of these people personally and professionally. 
I think it is going to be a great discussion this morning.
    The topic of sustainable wastewater or water management 
generally is indeed a broad subject and can get into everything 
from asset management, environmental management systems, 
pricing, rate structure, workforce, replacement.
    But I am going to focus on two issues that relate, I think, 
or interrelate to each other: generally, the idea of managing 
not just technology, not just gray infrastructure but managing 
the landscape, the natural infrastructure--sometimes this goes 
under the term of green infrastructure or low impact 
development--as well as, in tandem, address the nexus between 
water, energy use and carbon footprints.
    Basically, I think these present tremendous opportunities 
both for dealing with environmental problems effectively, at 
the same time, being cost-effective and saving money.
    I think the best way to illustrate this is give you a 
concrete case that I set out in my written testimony from a 
study of 27 water suppliers by the American Water Works 
Association and the Trust for Public Lands. They found that the 
more forest cover in a watershed results in lower treatment 
costs. That is probably pretty self-evident.
    But when you look at it in detail, for every 10 percent 
increase in forest cover in the source area, treatment and 
chemical costs and, presumably, energy costs decrease 
approximately 20 percent. Almost 50 to 55 percent of the 
variation in treatment costs can be explained by the percentage 
of forest cover in the source area.
    Now take that into the urban context, the kind of situation 
that Congressman Carnahan mentioned where you are dealing with 
major urban wet weather issues, which is that constellation of 
issues that includes combined sewer overflows, stormwater, 
traditional point source or end-of-the-pipe discharges, maybe, 
sanitary sewer overflows, et cetera.
    All these things could be addressed in a more holistic and 
more comprehensive and integrated fashion involving not just 
resort to traditional hard or gray infrastructure--deep 
tunnels, tanks, et cetera--but also, again, green 
infrastructure, nonstructural approaches, low impact 
development, greening the landscape.
    The reason why it is true that all of these urban wet 
weather issues essentially come back to the amount of 
imperviousness, that is hard surface, in your watershed: roofs, 
roads, sidewalks, parking lots that basically harden the 
landscape and disrupt the natural flow regime.
    All of these impervious surfaces basically prevent water 
from seeping into the ground or being retained onsite where it 
is filtered out, where it is slowed down, where it is cooled 
and where it evaporates.
    Cities such as Philadelphia, Chicago, Portland, Oregon and 
Milwaukee are all on the cutting edge pursuing these kinds of 
opportunities, whether it is green roofs, vegetative swales, 
urban reforestation, pervious surfaces even in alleyways as in 
the case of Chicago.
    So, again, I think these are approaches which, if scaled up 
sufficiently in a given urban watershed, will reduce cost, will 
deliver multiple environmental benefits and achieve the 
objectives under a Clean Water Act NPDS permit.
    Briefly, since we have many experts dealing here with 
energy issues at the facility level, I think it is important to 
point out that, again, energy management now is at the heart of 
sustainable water and wastewater management. There is no 
question that in the last four or five years this has moved to 
the forefront not just because of cost issues and the cost of 
energy but also because of concerns with a carbon-constrained 
world.
    Again, I think don't forget that these low impact, 
nonstructural approaches also interact with these more 
traditional energy savings opportunities. And, basically I 
think as we point towards more sustainable programs any 
funding, whether it is from the ratepayers, from the State or 
the Federal government, needs to give more credence or provide 
a level playing field for energy management techniques as well 
as low impact or nonstructural approaches.
    Essentially, with my limited time, I would like to mention 
I happen to be honored to serve on the board of a new 
foundation called the Clean Water America Alliance, and I just 
want to conclude with a statement from the web site of the 
Alliance that sort of summarizes my view of this matter:
    ``Imagine a world where water is viewed, managed and valued 
as one resource, a world where the silo thinking that has kept 
clean water, drinking water, stormwater and water reuse 
interests segregated erodes away and a movement toward meeting 
future challenges on a watershed basis, with a focus on 
sustainability and green cities, emerges in its place.''
    That is a world that we can imagine. I think that is a 
world that we can bring about.
    And I thank you for your time.
    Ms. Johnson. Thank you very much.
    Mr. McLean.
    Mr. McLean. Thank you, Madam Chairwoman.
    As Director of the office at EPA responsible for clean 
energy programs, I am pleased to testify today on the 
opportunities to pursue clean energy investments in this 
Nation's water and wastewater infrastructure. I am also pleased 
to be accompanied by Caterina Hatcher of my staff who is 
available to answer your technical questions.
    Fostering sustainable wastewater management is a priority 
at EPA. Our Office of Water is actively addressing the many 
issues with sustainable wastewater infrastructure including 
asset management, green infrastructure and water efficiency. My 
office works with the Water Office on clean energy issues which 
include energy efficiency and renewable energy.
    Clean energy is fundamental to sustainable wastewater 
management as well as a number of energy and environmental 
issues including global climate change.
    EPA can provide critical assistance based on more than 15 
years of experience in this area. A leading example is the 
ENERGY STAR program which is delivering tremendous results. As 
of 2007, EPA in partnership with thousands of organizations 
across the Country is helping Americans avoid the greenhouse 
gas emissions equivalent to those of 27 million vehicles while 
saving $16 billion in annual energy bills.
    Also, EPA's Combined Heat and Power Partnership program has 
provided significant technical assistance to help industries 
adopt this highly efficient technology.
    Based on this experience, I wanted to make four points this 
morning.
    First, wastewater treatment plants are large energy 
consumers, as has been mentioned, and the potential for cost-
effective savings is also large.
    Water and wastewater treatment facilities require 
significant energy to power pumps, aeration systems and other 
operations. They account for an estimated 3 percent of national 
energy consumption and about $4 billion annually in energy 
costs and substantial emissions of greenhouse gases. Further, 
they are typically the largest energy consumers within local 
governments, accounting for 30 to 40 percent of the energy 
consumed
    Clean energy can significantly reduce the energy use, 
energy costs and greenhouse gas emissions. Audits show that 10 
to 20 percent savings are available through process 
optimization and equipment modifications at good rates of 
return. This suggests savings on the order of half a billion 
dollars or more per year available to local governments.
    My second point is capturing these savings requires new 
energy management tools. The pursuit of clean energy faces many 
barriers such as lack of information, technical expertise and 
funding.
    To address these barriers, EPA has developed tools and 
resources to help decision-makers assess the benefits of clean 
energy, act on available opportunities and measure results. The 
keystone of EPA's efforts is better management-level 
information on the energy used in buildings and facilities. We 
all know that you cannot manage what you do not measure.
    EPA has created a National Energy Performance Rating System 
for wastewater treatment facilities as we have for other 
building and facility types. Working for the past 3 years with 
leading industry partners, we devised a ranking system on a 
scale of 1 to 100, similar to a miles per gallon rating on a 
vehicle, where 1 means very inefficient and 100 means most 
efficient. This rating requires minimal data inputs but alerts 
a facility operator to the opportunities for improved energy 
efficiency and encourages more thorough analysis of a 
facility's operations.
    My third point is that wastewater treatment plants can 
benefit from adoption of what we call Combined Heat and Power 
or CHP.
    By capturing the waste heat from combustion and putting it 
to work, CHP helps a facility reduce its energy costs by 
improving its fuel efficiencies to levels of 60 to 80 percent, 
double that of most power plants. Many wastewater treatment 
facilities are good candidates for CHP due to their onsite 
source of free fuel, the biogas, and their onsite needs for 
heat.
    The best time to consider CHP is when significant 
investment in infrastructure occurs. EPA stands ready to assist 
facilities through this CHP partnership program.
    And the fourth and final point I wanted to make was 
government-industry partnerships such as ENERGY STAR and the 
CHP partnership, can deliver results.
    For example, through EPA's Energy Performance Rating for 
schools, we estimate that nearly 25 percent of the Nation's 
schools have been assessed and more than 40 school districts 
have reduced their energy bills by 10 to 20 percent or more 
using this rating system.
    Recently, the Lieutenant Governor of Wisconsin challenged 
its school system to achieve 10 percent savings in a year's 
time, using this EPA system.
    With regard to wastewater treatment facilities, more than 
100 have already been rated using EPA's system. We expect our 
strong partnerships with utilities, States and local 
governments to expand this in the future.
    In conclusion, as more attention is focused on improving 
the Nation's water and wastewater infrastructure, EPA is 
prepared to help achieve clean energy goals at the same time.
    Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Rich Brown.
    Mr. Brown. Thank you, Madam Chairwoman and Members of the 
Subcommittee. I really appreciate the opportunity to testify 
today.
    My name is Rich Brown, and I am a research scientist at the 
Lawrence Berkeley National Laboratory in Berkeley, California, 
and my research investigates the potential for energy 
efficiency and renewable energy to reduce energy use in 
buildings and industry. And I am very honored to be here today 
to talk about my research.
    I just want to be clear. My testimony today is just my own 
personal opinion as a professional in the field and doesn't 
represent my employer or the sponsors of my research.
    I am here today to focus on energy use within the U.S. 
wastewater system and the opportunities to reduce that energy 
use through energy efficiency and renewable energy 
technologies, and based on my research I would like to make 
four points.
    First, our wastewater sector is energy-intensive, and it is 
growing more so over time.
    Second, this energy consumption could be reduced 10 percent 
to 30 percent using proven technologies, energy efficiency 
technologies.
    Third, our plants, our wastewater treatment plants can 
actually approach zero net energy use through the use of onsite 
renewable energy resources.
    And, finally, the most important thing I would like to 
emphasize is that the key to widespread adoption of these 
technologies is implementation of a comprehensive energy 
management system by our wastewater utilities.
    Most of the municipal wastewater in the U.S. is treated in 
very large treatment plants that closely resemble industrial 
facilities. These large plants are very energy-intensive and 
account for most of the energy consumed in the sector. 
Nationwide, it is estimated that the sector consumes about 1 
percent of the electricity sold in the U.S.
    Most of this energy is used in the treatment process itself 
mainly to aerate the wastewater which provides oxygen to the 
bacterial treatment processes. The energy needed to treat a 
gallon of wastewater has increased over time, and it will 
likely increase in the future to address emerging contaminants 
and provide water for reuse.
    A variety of proven commercially-available technologies are 
available to reduce this energy consumption. These technologies 
are of several types including improved equipment such as pumps 
and blowers that operate more efficiently, improved controls to 
operate those pumps and blowers only as much as needed and 
improved system designs to ensure the plant's components 
operate well together.
    In my written testimony, I identify a whole list of 
efficiency technologies, but I wanted to identify and call out 
here a set of measures that can be relatively quickly and 
easily installed during a plant renovation. These upgrades 
include replacing pump motors and pumps with high-efficiency 
models, installing variable frequency drives to let the pump's 
energy to scale with the required pump flows, installing 
dissolved oxygen sensors to closely monitor the aeration 
process and installing a data acquisition system for overall 
plant monitoring and control.
    And it is estimated that energy savings from this package 
of upgrades is typically on the order of 10 to 30 percent of 
baseline consumption.
    I call that particular set out because that is a good 
candidate for the type of short-term stimulus funding that is 
being talked about in the Congress now.
    Besides energy savings, wastewater plants offer several 
opportunities for generating energy from renewable resources. 
The most common and cost-effective renewable resource is biogas 
from anaerobic digesters used to generate combined heat and 
power.
    And, as Mr. McLean mentioned, the EPA has estimated that if 
all the current digesters added Combined Heat and Power 
systems, we could generate on the order of 340 megawatts of 
electricity in the U.S. which is similar in size to a base load 
power plant. So the potential is significant.
    Treatment plants are also a good site for solar and wind 
generation systems because they often have significant land 
area and tend to be sited away from populated areas. In States 
with generous renewable energy incentives, water and wastewater 
utilities have been among the leaders in installing these 
renewable energy systems.
    But despite the potential of efficiency in renewables, they 
still have not been widely adopted in the wastewater industry. 
There are many factors to explain this, but mainly it is due to 
the plant operator's attention tending to be mostly focused on 
meeting wastewater or water discharge permits and not on 
efficient energy use.
    Also, many wastewater plant operators are unaware of their 
plant's energy use. They don't actually see the bills, 
typically.
    The solution to these problems is an organization-wide 
energy management program to continuously improve its 
performance. Such a program begins with collecting energy data 
and benchmarking against the plants' peers.
    This helps managers set energy goals and develop a plan to 
achieve those goals. Ultimately, an energy management program 
contributes to overall plant quality and can help improve non-
energy factors such as permit compliance.
    And I would just like to finish with an example, actually, 
my home wastewater treatment utility in Oakland, California at 
East Bay Municipal Utility District.
    Over the last five or so years, they have implemented a 
very aggressive energy management program, and the energy 
management team at their main wastewater treatment plant 
implemented a whole series of energy efficiency improvements 
that reduced the energy consumption of the plant by about 20 
percent.
    And then they upgraded the biogas production from their 
digesters so that their Combined Heat and Power plant now meets 
80 percent of the plant's energy needs. Just yesterday, I got 
an email from the plant energy manager saying that they have 
improved that even, and it is now 90 percent of their energy 
needs are met by the Combined Heat and Power system.
    So I think this is the best proof that the potential is 
there to realize dramatic savings through efficiency and 
renewable technologies, but it takes an ongoing commitment to 
monitor energy use and implement the right technologies.
    So I would like to thank you for the opportunity, and I 
hope this information is useful in your deliberations. Thank 
you.
    Ms. Johnson. Thank you very much.
    Ms. Jeanette Brown.
    Ms. Brown. Good morning, Madam Chairman and Subcommittee 
Members.
    My name is Jeanette Brown, and I am the Vice President of 
the Water Environment Federation. I am also the Director of the 
Stamford Water Pollution Control Authority.
    I am honored to be here today to discuss the opportunity 
within the wastewater sector to ensure protection of water 
quality and public health in a more energy-efficient and 
economical manner through conservation, new technology and 
innovation.
    The 35,000 members of the Water Environment Federation, 
also called WEF, include scientists, engineers, regulators, 
academics, plant operators and other professionals working in 
the United States and around the world. Our goal is a 
sustainable water infrastructure.
    My utility provides advanced treatment for a community of 
100,000 people. I am very proud of the job we do, providing an 
essential community service and protecting the water quality of 
Long Island Sound.
    WEF supports the concept of sustainable water 
infrastructure in a variety of ways including green 
infrastructure, water efficiency and energy conservation.
    To collect and treat wastewater at the more than 16,000 
wastewater plants in the United States, we use over 1 percent 
of electricity generated. Energy costs represent 30 percent of 
a utility's operating budget, second only to labor. Water 
utilities can be the largest municipal energy consumer.
    Energy is used to pump wastewater to the plant and treat it 
once it gets there.
    To reduce energy, water conservation has to be our first 
line of attack. Necessity is the mother of invention. The need 
for new approaches is apparent, given present economic 
conditions and pressures on limited resources and our 
environment. The landscape is changing as technologies and 
concepts are developed.
    An evolution in thinking is moving treatment plants from 
being viewed as major energy consumers to net energy producers. 
There are several reasons for this paradigm shift: cost of 
energy and need for energy independence, climate change and the 
need for a sustainable infrastructure.
    In Stamford, we are using an old technology called 
gasification in a new way, using the product of wastewater 
treatment known as biosolids which have a relatively high 
energy value.
    Think about this: A 1-pound package of Stamford biosolids 
can light 3 60-watt light bulbs for an entire day. Since the 
United States produces 14 trillion pounds of biosolids every 
year, just imagine how many bulbs we can light from this 
renewable energy source which is currently considered by many a 
waste product.
    My written statement includes two other examples, one from 
Rifle, Colorado and one from East Bay Municipal Utility 
District that Mr. Brown just mentioned.
    There are several opportunities for Federal government to 
provide leadership and assistance as we move forward:
    First, the State Revolving Fund should be used more 
aggressively to promote energy efficiency, conservation and 
innovation. We hope the Committee will make this a priority 
when you take up SRF reauthorization later this year.
    Second, we urge you to work with your colleagues to ensure 
any new energy legislation encourages collaboration between 
energy and water.
    Third, expand programs to educate water professionals, the 
electric power industry and regulators and ensure these 
programs reflect the latest technologies and practices.
    Fourth, support funding for research that allows the 
testing of innovative ideas. Please refer to the written 
testimony submitted by the Water Environment Research 
Foundation for more information on this.
    We need to remember three concepts: energy savings through 
water conservation, energy savings through energy conservation, 
energy savings through innovation and research.
    The water sector needs a new mindset, and we as Americans 
need a new mindset.
    Wastewater utilities are big players in using energy, but 
we desire to be big players in conserving and even supplying 
energy. Keep in mind, wastewater is not waste. Our collective 
interests in a sustainable planet requires that we utilize this 
resource. Water should be reused, and solids should also be 
reused, and one way to reuse the solids is to create energy.
    This requires a shared vision, leadership and funding. We 
at the Water Environment Federation stand ready to work with 
you on a shared vision for turning waste into watts and 
ensuring energy efficiency and energy independence for 
sustainable wastewater treatment.
    Madam Chair and Subcommittee Members, thank you for giving 
me the opportunity to discuss this important topic.
    Ms. Johnson. Thank you very much.
    Mr. Alan Zelenka.
    Mr. Zelenka. Thank you, Chairwoman Johnson and Members of 
the Committee. It is an honor to be testifying here today.
    I was a project manager for the Energy Independence Project 
for the Oregon Association of Clean Water Agencies which was 
funded by the Energy Trust of Oregon. The project was a 
groundbreaking project that was recently awarded the American 
Council of Engineering Companies, ACEC's, 2008 Project of the 
Year Award in Oregon. This is a hot topic.
    The goal of the project was to see what it would take for 
wastewater treatment plants to become energy independent using 
energy efficiency and renewable resources.
    The study evaluated two wastewater treatment plants in the 
Cities of Gresham and Corvallis, Oregon. Both have anaerobic 
digesters and advanced secondary treatment. The study showed 
that both Gresham and Corvallis could achieve energy 
independence by using energy efficiency, maximizing the use of 
their digester gas, installing micro-hydro and solar 
photovoltaic or PV systems.
    Kennedy/Jenks developed a broadly applicable, systematic 
methodology to evaluate and recommend which energy efficiency 
measures are cost-effective and determine which renewable 
resource would work best to make these plants become energy 
independent.
    We created a six-step program that is laid out in the 
materials that are provided you. But the first step was 
identify all the energy efficiency measures possible that are 
cost-effective, determine the plant's energy profile and then 
assess the renewable resources that make sense for the local 
community, evaluate those resources and then rank them.
    I provided in the testimony a project sheet. On the second 
page is a ranking of these renewable resources. And I provided 
color copies. I have them with me.
    A ranking of the renewable resources, and the first one, 
tier one of these was a fats, oils and grease and green waste 
program followed by internal combustion engines and 
microturbines. Two was fuel cells and micro-hydropower inside 
the plant. And then tier three was small wind turbines, solar 
PVs and really small micro-hydro.
    And then the final step was to make recommendations for the 
plants to become energy independent.
    The study provides a path toward energy efficiency and 
energy independence that any wastewater treatment plant in the 
country could follow.
    First is to install all the cost-effective energy 
efficiency measures. They are the most cost-effective way to 
reduce energy needs, save money and protect the environment.
    If the plant has unused capacity in their digesters, it 
should investigate a fat, oils and grease, or FOG, program and 
a green waste program to create more digester gas. This 
additional biogas can then power IC engines or microturbines or 
fuel cells to create more renewable electricity.
    And the substantial tipping fees that the treatment plants 
would get could offset the capital costs in a very relatively 
short period of time, making FOG and green waste programs a 
very cost-effective option.
    Then finally, internal combustion engines or IC engines 
using digester gas are the most cost-effective and best overall 
generation option and should be the first generation source 
considered.
    And after using all the available digester gas, plants 
should consider micro-hydro, small wind and, finally, solar PVs 
to become energy independent.
    Finally, because all of these resources have high capital 
costs--Corvallis' plan would cost $12 million and Gresham's 
would cost $10 million--these high capital costs lead us to 
need to have public waste treatment plants consider third party 
leases to avoid the up-front capital costs, to stabilize their 
O&M costs and take advantage of the available tax credits.
    The wastewater treatment plants do indeed use a great deal 
of energy. Many have already done a great deal of energy 
efficiency but by no means have the majority implemented all 
the cost-effective energy efficiency measures. Yet, there is 
enormous untapped potential across the country to mine much of 
this energy efficiency out of waste treatment plants with long-
term benefits for everyone.
    Our study included a checklist of potential energy 
efficiency measures that each and every waste treatment plant 
across the country could use to make their plants more energy 
efficient and energy efficiency measures should be the first 
thing they do because they are the most cost-effective and best 
for the environment.
    We often see energy efficiency measures that have very 
small, short paybacks--short as a third of a year or as little 
as three years. What is needed to capture this potential is 
targeted programs, adequate funds available to do energy 
audits, and loans and incentives to get waste treatment plants 
to act.
    Energy efficiency has multiple benefits such as lower 
operating costs which means lower bills for ratepayers, new 
equipment that increases reliability, job creation, lower 
environmental impacts and reduced greenhouse gas emissions, a 
multi-win proposition.
    Digester gas occurs naturally in waste treatment plants, 
and that could be used to generate low cost renewable 
electricity. One recent survey showed that only 15 percent of 
waste treatment plants across the country generate electricity 
if they have the capability to do so. What is needed is 
programs directed at waste treatment plants to get access to 
capital at favorable rates and incentives to lower the costs.
    Other renewable resources like wind and micro-hydro and 
especially solar PV are feasible and can contribute greatly to 
making wastewater treatment plants energy independent and 
creating jobs, but it will take targeted programs, access to 
capital, financial incentives and incentives such as investment 
tax credits, accelerated depreciation and production 
incentives.
    However, we need to create mechanisms that public agencies 
can access more readily and take advantage of these tax 
incentives. For example, in Oregon, we have a Business Energy 
Tax Credit which pays up to 50 percent of energy efficiency and 
renewable measures for a particular project, but tax-exempt 
entities can't take advantage of that.
    We did a pass-through of the Business Energy Tax Credit or 
BETC in Oregon and allowed the public agencies to take 35 
percent of that 50 percent tax credit in an up-front payment 
and transfer the other 15 percent to eligible tax credit 
agencies.
    In conclusion, being creative and putting the right 
programs and incentives in place can allow wastewater treatment 
plants to maximize their energy efficiency, optimize their use 
of renewables, lower costs, enhance the environment and create 
jobs.
    Thank you for the opportunity to testify today.
    Ms. Johnson. Thank you very much.
    Mr. Fahlund.
    Mr. Fahlund. Good morning, Chairwoman Johnson, Mr. Boozman 
and Members of the Committee.
    My name is Andrew Fahlund, and I am Vice President for 
Conservation Programs for American Rivers, the leading national 
voice for healthy rivers and the communities they depend upon. 
Thank you for the opportunity to testify.
    This moment in time offers a unique opportunity, as you 
have heard from some of the panelists already, for Congress to 
put forth a new vision for sustainable water management. In the 
same way that we must transform our Nation's energy strategy by 
embracing efficiency and renewable technologies, we need to 
transform our water infrastructure and embrace efficiency and 
green approaches that integrate our built and natural assets 
and tackle a variety of problems all at the same time. With the 
impacts of climate change promising more volatile patterns of 
precipitation, there is simply no time to waste.
    My testimony will cover three main areas: first, a 
definition of what we call green infrastructure; second, some 
examples of how green infrastructure is cleaning our waters, 
enhancing our communities and saving money; and, third, a set 
of recommendations for the Committee on how to further that 
success.
    Green infrastructure means that rather than relying solely 
upon pipes and treatment plants, we protect and restore those 
elements of the natural landscape that provide these same 
services for free, such as wetlands, small streams and forested 
landscapes.
    It means that we replace parts of the built landscape such 
as placing gardens on rooftops and parking lots or replacing 
asphalt with materials that allow water to seep into the ground 
rather than run into the sewer.
    These green approaches are gaining favor in cities and 
counties across America because they are effective, they are 
inexpensive and because their benefits go well beyond water 
quality to include enhanced water supply, better flood 
management, reduced energy and more livable communities.
    We can no longer to afford to invest in large single-
purpose infrastructure nor can we consider our built 
infrastructure separate from our natural assets. Both are 
important elements of a clean water system. We should proceed 
by maximizing the contribution of green infrastructure as a 
cost-effective first line of defense that enhances the 
effectiveness and extends the life span of engineered 
technologies.
    The current economic crisis emphasizes the importance of 
investing in cost-effective solutions and avoiding investments 
in sewer lines to nowhere.
    Green infrastructure creates jobs in many sectors including 
plumbing, landscaping, engineering, building and design, and 
green infrastructure also supports supply chains in the jobs 
connected with manufacturing of materials. A recent study 
showed that covering even 1 percent of large buildings with 
green roofs in medium to large size cities would create over 
190,000 domestic jobs.
    The following are three examples of where green 
infrastructure provided community benefits at a fraction of the 
cost of traditional approaches. My written testimony contains 
several other examples.
    By investing $600 million to protect and restore watershed 
lands, New York City saved $6 billion in capital costs 
otherwise needed to construct a water filtration plant as well 
as 200 to 300 million dollars in additional savings in O&M.
    Recently, the City of Indianapolis announced a plan to use 
wetlands, trees and residential modifications to solve their 
combined sewer overflow problem. As a result, the city will be 
able to reduce the size of its new sewer pipe, saving over $300 
million and at the same time making the city more beautiful.
    Smaller cities and communities are also applying these 
techniques. The University of Arkansas is designing and 
implementing a Habitat for Humanity neighborhood including 
green infrastructure to address water quality and minimize 
local flooding, using natural areas to absorb runoff. The 
project has cut infrastructure costs by half over traditional 
approaches.
    American Rivers urges the Committee to promote and 
implement green infrastructure by primarily focusing in two 
areas:
    First is to integrate green infrastructure into broader 
water infrastructure spending and programs rather than treating 
it as separate. Mandatory set-asides are critical in the short 
run, but we need to require comprehensive integration of green 
and traditional approaches in our investment decisions.
    Second, through your oversight role, ensure that EPA and 
other agencies facilitate and foster green infrastructure in 
their policies, practices and spending decisions and support 
legislation that would further these goals.
    In conclusion, today, we have reached a crossroads in how 
we manage our Nation's water. We should use this moment to move 
from a 19th Century strategy of overcoming nature to a 21st 
Century strategy of working along with it. With the provisions 
that this Committee championed in the economic recovery 
package, we are off to a great start.
    Thank you for the opportunity to testify, and I would be 
happy to answer any questions you might have.
    Ms. Johnson. Thank you very much.
    I am going to defer the first questioning round to Ms. 
Edwards.
    Ms. Edwards. Thank you, Madam Chairwoman, and thank you all 
for your testimony.
    I have a couple of questions if I could direct them to Ms. 
Hatcher because, one, you carry out the program. I am curious 
about what you think.
    EPA has basically said that the cost-effective clean energy 
technologies haven't routinely been considered as part of 
wastewater infrastructure improvements, and I wonder if you can 
expand on that and particularly pointing out some of the 
barriers that have to be overcome to incorporate energy-
efficient technologies and approaches to be the norm.
    And I was especially tuned in to both Mr. Brown and Ms. 
Brown and your testimony that essentially says we can actually 
do this. It may not be rocket science in terms of some of the 
technologies, but we can actually do it.
    But I wonder about the intentionality of the strategies 
that we have within the government to encourage development of 
energy-efficient technologies and strategies in wastewater 
treatment systems and what we can do to further that 
intentionality.
    Ms. Hatcher. Thank you for asking me that question. I am 
happy to answer that question.
    In terms of the barriers, to address the first part of your 
question that had to do with the barriers to energy efficiency 
and renewable energy in wastewater treatment plants, in our 
written testimony, what we submitted was it is basically a very 
simple concept that you can't manage what you don't measure. 
The state of affairs out with POTWs in the United States is 
that many plant operators don't necessarily even have access to 
their energy bill information.
    So a simple first step to understand what your energy use 
picture really is, is to benchmark your wastewater treatment 
plant, and EPA has developed a system to help with that. There 
are other approaches that can be taken out there.
    Of course, there are a small number of wastewater treatment 
plants that are actively pursuing energy efficiency 
opportunities and renewable energy opportunities. But when you 
move out further, we run benchmarking trainings through the 
ENERGY STAR program where we train plant managers to benchmark 
their facilities, and often what the first step that they need 
to do is actually go gather their energy use information so 
they can understand how they are using their energy.
    Ms. Edwards. So what does a benchmark of 58 really mean 
and, if operators are not required to measure, then why would 
they?
    Ms. Hatcher. Well, there is an energy-saving opportunity, 
and as you heard that energy costs are second only to salaries, 
and from a municipality's perspective, which is actually what 
led us through the ENERGY STAR program into creating a 
benchmarking system for wastewater treatment plants, it is 
because how much of an energy consumer wastewater treatment 
plants are relative to a municipal government's energy use 
picture.
    So the opportunity to save money through cost-effective 
energy efficiency opportunities and things like Combined Heat 
and Power, it makes sense to do it.
    Ms. Edwards. So what do the scores really mean, though, say 
from 1 to 100, and a goal? I don't know if some median goal is 
58. What does that really mean?
    Ms. Hatcher. What that means is a benchmarking score is 
created when a plant operator puts in 12 months of energy use 
information into our tool called Portfolio Manager which is 
accessible online, and they also put in a few other parameters 
about the facility, which I can share with you very quickly.
    Those variables are the zip code so we can get the location 
of the facility to do our weather normalization, average 
influent flow, average influent biological oxygen demand, 
average effluent biological demand, facility design and flow 
rate, and the presence of something called Fixed Film Trickle 
Filtration Process and presence of nutrient removal.
    Ms. Edwards. But does EPA have or is there a target that a 
treatment plant, if they wanted to pursue efficiency, is there 
a target?
    Ms. Hatcher. Well, the range goes from 1 to 100. In other, 
in our buildings categories, we establish ENERGY STAR rating at 
a 75 or higher on that scale meaning that that building or 
plant, if it is operating at a 75 or higher, it is within the 
top 25 percent of energy performers nationwide. They are more 
energy efficient than 75 percent of their peers across the 
Nation.
    Does that make sense?
    Ms. Edwards. It makes sense. It is just that if it is in 
the top 25 percent, it means that within the plants that are 
shooting for the goal it is in the 25 percent, but it is not 
necessarily the most efficient that it could be.
    Ms. Hatcher. It is a comparison to your peers.
    Ms. Edwards. Right. Thank you.
    Ms. Johnson. Thank you very much.
    Mr. Duncan.
    Mr. Duncan. Well, thank you very much, Madam Chairwoman.
    I want to thank the witnesses for giving very interesting 
testimony.
    A few months ago, I was talking to our colleague, 
Congressman Marion Berry from Arkansas. I asked him how many 
counties he represented, and he told me he represented 26 
counties. He said that his area had been depopulated since 
World War II and that he had to drive 50 miles to the nearest 
large grocery store and 100 miles to the nearest multi-screen 
movie theater.
    I mention that because about that same time I read in the 
National Journal that two-thirds of the counties in the U.S. 
are losing population. That really surprises people in my area. 
I represent the Knoxville area, and it has been one of the 
fastest growing areas in the Country for several years.
    In fact, a year and a half ago, I chaired a conference in 
Knoxville on growth with a little over 700 experts and planners 
and so forth, trying to figure out how we handle the growth and 
not get overwhelmed by it.
    The reason I mention all that now is it seems to me that 
that is a factor that needs to be recognized, particularly in 
regard to water and has policy implications in regard to what 
we do about our drinking water, our wastewater and so forth 
because what we need to do in some places we may not need to do 
in other places.
    And it is going to be very difficult to come up with a one 
size fits all. In fact, we probably should do everything 
possible to avoid a one size fits all solution when we come up 
with national legislation or national rules and regulations in 
regard to water.
    Mr. Mehan, you mentioned that there are funds for land 
purchases that can be obtained from the State Revolving Loan 
funds for drinking water. Do you know how much is being done on 
that at this point, how much money is being spent in that way?
    Mr. Mehan. I don't have those figures, Congressman. But it 
is the case that with the Safe Drinking Water SRF you can do 
that, and I know it has. There have been big purchases in 
California and other places.
    Essentially, whether it is the Safe Drinking Water or the 
Clean Water Act State Revolving Fund, there are tremendous 
flexibilities there that the States can utilize if they so 
choose, whether it is for best management practices for 
nonpoint sources, whether it is land protection or whether it 
is for green infrastructure or low impact development. Not all 
States want to do that.
    But you are seeing, it is a small number, States begin to 
provide in their rating system certain incentives for energy 
efficiency or for low impact development or allow BMPs, let's 
say, for agriculture in the appropriate watershed.
    But it is true that land purchases can be accessed. Money 
for that can be accessed through the Safe Drinking Water State 
Revolving Loan Fund.
    Mr. Duncan. Just after that, you say in your testimony that 
a study of 27 water suppliers conducted by the Trust for Public 
Land and the American Water Works Association found that more 
forest cover in a watershed results in lower treatment costs.
    Another thing that surprises people, I read several years 
ago in Bill Bryson's book, A Walk in the Woods about hiking the 
Appalachian Trail, that New England in 1850 was 30 percent in 
forest land. Today, it is almost 70 percent in forest land.
    And a few years ago, I read that Tennessee, my home State 
of Tennessee, in 1950 was 36 percent in forest land. Today, it 
is 55 percent in forest land. That really amazes people.
    And so, once again, a lot of places have almost more forest 
cover than they really need, and many places don't because the 
growth in Tennessee is in a circle around Nashville and a 
circle around Knoxville and that is true in almost every State. 
The growth is in the counties that touch on the urban counties.
    When we consider things like green infrastructure and low 
impact development and all of that, we have to look at that 
more closely. And some of that may be good, and some of it may 
be just almost wasteful because I am glad that several 
witnesses said things like cost-effective and savings and so 
forth because that is what we are going to have to look at.
    My time is almost running out, but I will give you an 
example. I have no coal in my district, but I have noticed that 
some people want to do away with almost all coal production in 
this Country even though we are sometimes called the Saudi 
Arabia of coal and one of the reasons is because people say it 
has a bad impact on the streams and the rivers and so forth.
    Yet, if you do that, you are going to double or triple or 
quadruple the utility bills, and you are going to hurt a lot of 
poor and lower income people in the process. So you have to 
take that into consideration.
    I read that H.L. Mencken said there is a simple solution to 
every human problem, one that is neat, plausible and wrong. And 
so, what works one place may not work in another.
    Green infrastructure may be good one place and not 
necessary in another place. That is my point.
    I am sorry I didn't get to more questions. I got a little 
wound up there, Solomon.
    But thank you very much. Your testimony has been very 
helpful.
    Ms. Johnson. Thank you very much.
    Mr. Hare.
    Mr. Hare. Thank you, Madam Chair.
    Mr. Fahlund, just a couple questions for you. In your 
opinion, what is the one factor that is most responsible for 
American towns and cities for not adopting sustainable 
wastewater infrastructure practices that you have talked about 
this morning?
    Mr. Fahlund. You know I think it is a little bit difficult 
to pin it down, but in some respects I almost would describe it 
as inertia. I think that we have sort of gone along a path that 
is predictable and one that people are comfortable with, and so 
breaking out of that kind of a paradigm can be challenging.
    But we are starting to see innovators, and we are starting 
to be able to point to places, a great diversity places. I am 
sorry Mr. Duncan left because I actually would argue that I 
think green infrastructure is in fact universally beneficial 
because it is based on very simple principles, and those 
principles are quite universal.
    But I would say inertia is the biggest challenge.
    Mr. Hare. You also recommended that the Committee ensure 
that Federal agencies such as EPA facilitate and foster 
sustainable infrastructure policies and practices and spending 
decisions.
    In your opinion, what would be the first step you would 
like to see this Committee take to see that these practices are 
undertaken by the EPA and other agencies? Would that be 
oversight, legislation or a combination or just basically 
anything here?
    Mr. Fahlund. Well, I would certainly say a combination of 
oversight and legislation.
    I think supporting EPA's green infrastructure initiative, 
perhaps helping to create an Office of Green Infrastructure 
within the Office of Water would be an important step for EPA 
to take.
    I think supporting implementation of a performance-based 
standard for stormwater that focuses on predevelopment 
hydrology is sort of the optimal goal for a watershed. So, 
essentially trying to at least hold constant what we had before 
and not have to worry about the impacts of impervious surfaces 
as much as we currently do.
    Mr. Hare. This is maybe for the rest of the panel. I only 
have a couple minutes here but for all of you.
    Much has been made of the potential economic stimulation 
effect of the economic recovery package that we passed and its 
potential for job creation from Federal expenditures on 
infrastructure. What I would like to know is there a similar 
potential effect for job creation within the innovative energy 
and water efficiency technology sectors from encouraging 
Federal investment in these technologies?
    Ms. Brown. Yes, I believe so. The technology that we are 
using, for example, that we are working with in Stamford, this 
gasification is a technology that really needs a lot more 
development. It could be made so that individual treatment 
plants can use this technology.
    You know most of the treatment plants in the United States 
are very small. If we had monies to develop a gasifier that 
would work for a one million gallon a day plant or a two 
million gallon a day plant, these plants could become energy 
independent in my opinion.
    And that creates jobs. You have manufacturing jobs. You 
have construction jobs. And you end up with Combined Heat and 
Power and energy independence.
    So I think an investment in innovative technologies is 
money very well spent. It will not only help with energy use, 
but it will also create jobs.
    Mr. Hare. Mr. Zelenka, you had something?
    Mr. Zelenka. Yes. Both energy efficiency and use of the 
digester gas create jobs. Energy efficiency creates an 
infrastructure that can be used in basically any industrial 
setting.
    So using those and promoting those incentives to get those 
types of energy efficiency measures in the plants will create 
jobs, and, as well, using the digester gas will create a long-
term permanent job at that plant. It takes two people, 
basically, to run a plant if you generate electricity from 
methane.
    Mr. Hare. Thank you very much.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Madam Chair.
    I apologize for being late, but things kept popping up all 
morning. It is just one of those days.
    And one of the problems is I am co-chairing tomorrow the 
National Prayer Breakfast, which I assume everyone here will go 
to and, if not, we will pray for you in the meantime.
    [Laughter.]
    Mr. Ehlers. But it has taken more than my share of time.
    Thank you all for being here.
    I especially want to comment and welcome Mr. Mehan who I 
worked with in Michigan some years ago and was at death's door 
for a few years. I am glad you have recovered, Marty, and 
welcome back. Good to see you again.
    I am extremely interested in energy conservation and have 
been for about 30, 40 years now, and I am interested in hearing 
the discussion here about energy conservation in connection 
with wastewater infrastructure.
    I am sorry I missed the earlier discussion, so if I ask a 
question that is not appropriate. But to start with, what order 
of magnitude of energy savings do you think we can achieve by 
readjusting our wastewater systems? Are we talking a 5 percent 
savings in energy, 20 percent, 50 percent? What we can achieve?
    And my real question is: Is it worth going after?
    Anyone wish to comment on that?
    Mr. Brown. I can. I am Rich Brown from the Lawrence 
Berkeley National Laboratory.
    In my testimony, for energy efficiency technologies, I 
cited a range of 10 to 30 percent savings using commercially-
available proven technologies. In using more aggressive 
strategies, process optimization, it is possible to get 40, 50 
percent savings.
    It is obviously depends on the starting point, how 
efficient the plant was to begin with, but just on the energy 
efficiency, energy conservation side you can do that.
    And then with renewable energy generation, either from 
biogas or other renewable sources, it is possible to get energy 
independence, as Mr. Zelenka testified.
    Mr. Ehlers. Okay. Thank you.
    And you are at Lawrence Berkeley Lab?
    Mr. Brown. Yes. Correct.
    Mr. Ehlers. I spent 11 years there myself, a good friend of 
Art Rosenfeld. Is he still playing around with energy issues?
    Mr. Brown. Oh, very much so, yes.
    Mr. Ehlers. I assumed he would be.
    Mr. Brown. I was one of Art's students.
    Mr. Ehlers. Oh. Well, good.
    Ms. Brown?
    Ms. Brown. Yes, I can give you an example.
    At my wastewater treatment plant, we have a treatment plant 
that is designed for 24 million gallons a day. When we were 
putting in some new equipment, we put in high-efficiency 
motors, variable frequency drives, control systems for 
dissolved oxygen to control blowers. We have put in a computer-
controlled management system, and our power consumption 
decreased by 18 percent.
    And that was without anything else, just things that were 
currently on the market that you could use and any treatment 
plant can install without a huge capital expenditure.
    Mr. Ehlers. That is good. I am very pleased to hear that 
solid number.
    People tend not to realize how easy it is to save energy. I 
know in one of our buildings here we replaced the elevator 
motors and got a tremendous increase in efficiency.
    Ms. Brown. Just lighting, we went to a different kind of 
lighting within our buildings, and that had a significant 
impact too. So people overlook lighting, but it also has a 
great benefit.
    Mr. Ehlers. Well, as someone who put florescent lights in 
his house about 30 years ago, I can appreciate how much money I 
have saved by now.
    Mr. Zelenka?
    Mr. Zelenka. Yes, a couple things, Mr. Ehlers.
    In our proposal, we had a list of energy efficiency 
measures that any waste treatment plant can go down and check 
off, that they can look at to make sure that they are doing all 
the energy efficiency measures that they possibly can, 
including lighting.
    My experience is 10 to 30 percent savings, but in my 20 
plus years in working in energy efficiency every time I have 
said that higher number I have been wrong and been 
underestimating it. It might be as high as 50 percent.
    And energy conservation is the most cost-effective option 
for any waste treatment plant, and they should do that first. 
The other advantage is that it reduces their operating costs, 
which means that they can help stabilize rates over the long 
term which everybody in the community benefits from.
    Mr. Ehlers. Good.
    Mr. Fahlund?
    Mr. Fahlund. Yes. I just wanted to mention two things.
    One is that consumer end use efficiency is actually 
something that is an approach that really offers great 
opportunity for actual savings at the back end. At the plant, 
if you have less going into the plant, it requires, obviously, 
less energy to treat and move around.
    But it is also I think important to recognize that things 
like green infrastructure will reduce the amount of water also 
going into the plant through either leaks and other kinds of 
stormwater entering into systems that then don't have to be 
treated as well. So, again, reducing some of the volumes can 
make a big difference.
    Mr. Ehlers. Yes. My home town of Grand Rapids, Michigan has 
done a great job in that.
    Mr. Fahlund. Yes, they have. We have worked with Grand 
Rapids quite a bit.
    Mr. Ehlers. And they paid for most of it themselves.
    Yes, Ms. Hatcher.
    Ms. Hatcher. Hi. I would like to add that a good, strong 
energy management program overall is what will then ultimately 
help you with continuous energy management and continuous 
energy efficiency. One can purchase various technologies and if 
people aren't trained how to operate them and are not 
optimizing how those technologies work within the plant, they 
may not get the energy savings that they intended.
    So a strong continuous energy management program where you 
set a baseline for your energy use and then you work toward 
your energy efficiency reduction goals relative to that 
baseline and then measure and verify your savings over time is 
what will help make sure that you really meet your energy 
reduction goals and are using resources wisely.
    Mr. Ehlers. Well, thank you very much. That is very 
encouraging and very heartening.
    As I said earlier, it is not that hard to conserve energy. 
You just have to think about it and do it.
    I just got an idea while sitting here. One of the major 
corporations in my district is Steelcase Furniture, and they 
have developed a new system because people who sit at a desk 
all day get out of shape, they gain weight, et cetera. So they 
have developed a treadmill which keeps moving, and they can 
stand on the treadmill while they are working.
    And I just thought of another idea. Why not just tilt the 
treadmill, have them climbing and they can generate electricity 
which can power their computer? So I will have to pass that on 
to them too.
    [Laughter.]
    Mr. Ehlers. Thank you very much.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    Mrs. Napolitano.
    Mrs. Napolitano. Sorry. I am trying to look at my 
questions.
    I have a great interest in the ability to be able to look 
at new and innovative systems that are being utilized 
throughout the United States in the different areas that might 
be applicable. I am chair of the Subcommittee on Water and 
Power, so water is a very, very hot issue with my Subcommittee.
    But I have another question that might be a little 
different from what we are talking about. What do you know is 
being done in any area to address the emerging contaminants: 
pharmaceuticals, personal care products, chemicals in clothing 
and insecticides?
    That may benefit, as you are developing new technology or 
being able to utilize solar power or other power, to be able to 
do that. How are we dealing with that, as regards to anyone of 
you, as regards what we are talking about?
    Ms. Brown.
    Ms. Brown. The Water Environment Federation is very active 
in looking at these micro-constituents or emerging 
contaminants. We have developed a community of practice which 
is people that are really interested in the field of 
contaminants and experts that understand wastewater treatment.
    One of the things we need to do is be able to test for them 
within a wastewater treatment plant and have equipment that can 
identify what they are before we know how to treat them. So 
part of it is really in identifying what is in there and then 
how we can treat it. Is it really treated in a typical 
treatment plant or do we have to look at advanced treatment?
    But the Water Environment Federation and the Water 
Environment Research Foundation are putting a huge amount of 
effort into this subject right now, including specialty 
conferences that we have been running to really get the body of 
knowledge out there for people to explore it in more detail.
    But it is a very complex issue, and it is an issue that is 
going to take considerable study and then hopefully develop 
ways of treating it.
    Mrs. Napolitano. Anybody else?
    Yes, sir.
    Mr. Zelenka. As part of my spare time, I am a city 
councilor for the City of Eugene as well and one of the things 
that we are looking at is a take-back program for 
pharmaceuticals. Almost all of those drugs end up in the water 
stream, and they don't get filtered out through our waste 
treatment plants. Having a take-back program will keep those 
drugs from getting into the waste stream as well as deal with 
the problem of drug abuse from prescription drugs which is huge 
among teens as well. So there is added benefit to that program.
    Mrs. Napolitano. But it is also something that has not been 
filtered out of the urine.
    Mr. Zelenka. Right. It is difficult.
    Mrs. Napolitano. And so, you have an additional way of 
adding to or exacerbating the problem.
    The concern is what has being done because we know this is 
a problem nationwide? It isn't just in certain areas.
    How we deal with it or how we are developing the filter 
system to be able to do the job that would not affect those 
that don't have the immune system to protect themselves.
    Then the other question is the water treatment facilities 
generate a lot of space that could be good areas to place solar 
paneling. Are water treatment plants able to take advantage of 
their size to install photovoltaic systems that can support 
their energy needs and do you have any ideas for our government 
to assist in that effort?
    Ms. Brown.
    Ms. Brown. Yes and, in fact, at my utility, we have two 
very large buildings that have southern exposures. We are in 
the process now of sizing solar panels for it, and we are 
hoping to be able to generate quite a bit of power from those 
solar panels.
    One of the things that was very interesting when I started 
doing, looking in this a couple of months ago is that the 
incentives that were available for installing solar panels, at 
least in Connecticut, no longer exist because too many people 
were taking advantage of it.
    So what we need is we do need some funding, and we do need 
encouragement from the Federal Government. Funding would be 
great, whether it is in the form of a loan which is always good 
for us or an outright grant. The value that we are getting back 
from solar power would be great.
    In addition, wastewater treatment plants should be able to 
generate electricity from the water that flows through the 
treatment plant in the effluent pipes, and we need to do some 
more studying and have some incentives in that area also.
    Mrs. Napolitano. But is there an organization that puts 
these together so they know that they can work together with 
the Federal Government and request assistance in being able to 
establish the systems in smaller cities and towns?
    Ms. Brown. Certainly, organizations like the Water 
Environment Federation have. A lot of the people that are 
members of the Water Environment Federation are operators and 
plant people, and the education that comes out of the Water 
Environment Federation certainly can assist as a clearinghouse 
for people in learning about energy savings and things like 
solar panels or hydroelectric.
    Mrs. Napolitano. He has an answer.
    Mr. Zelenka. The project that we did for energy 
independence had both the Gresham and the Corvallis plants 
using solar PVs to become energy independent, and what they 
need is access to capital at low rates and incentives and 
access to the tax credits. The tax credits go to folks that pay 
taxes, but most municipal and county governments don't pay 
taxes.
    In Oregon, what we did was take the tax credit and create a 
pass-through that allows the municipal governments to be able 
to take that and get about 35 percent of the 50 percent tax 
credit in an up-front payment by transferring that tax credit 
to someone who has an appetite for that tax credit.
    So creative uses of tax credits, I think, is a better way 
to go than creating appropriation programs that we have had 
before that haven't really worked. So getting municipal access 
to those tax credits is real key to do the funding for PV 
programs and other renewables.
    Mrs. Napolitano. Thank you, Madam Chair. I have some other 
questions that I will submit in writing.
    Ms. Johnson. Thank you very much.
    Mr. Boozman.
    Mr. Boozman. Thank you, Madam Chair.
    I appreciate the testimony. Your knowledge on things is 
really very commendable.
    We face a lot of challenges in the Country right now, but, 
long-term, I think this is one of the biggest challenges that 
we face and probably one of the most important.
    Today, the economy is pretty tough with our communities, 
with our ratepayers and things like that.
    Mr. Brown, I think the consensus among a lot of the 
testimony is 10 to 30 percent depending on whatever. I guess 
the question I would have is what is the payoff on that? I mean 
we are reducing energy, but what is the low-hanging fruit?
    What can I look for when I go through a wastewater plant to 
see if they are doing the right thing?
    Mr. Brown. I cited some numbers in my written testimony. 
There was a list of energy efficiency upgrades with some 
typical paybacks.
    Unfortunately, the answer is it depends usually, and that 
is one of the reasons why an energy management program such as 
the ENERGY STAR, a portfolio manager program is so important 
because the specific upgrades and technologies that are 
appropriate for a given plant. It is going to vary depending on 
the plant. Essentially, every treatment plant is different.
    Mr. Boozman. What do you see, though, if you grabbed 100 
treatment plants? I know that they are all different.
    Mr. Brown. Right.
    Mr. Boozman. But what do you see or what are a couple of 
things that you see that most of them are lacking that they 
could do fairly inexpensively, that there would be a good cost 
return because the reality is it doesn't matter what we do? If 
it is not cost-effective in the environment that we are in now, 
it is just not going to happen.
    Mr. Brown. Yes. I mention in my testimony there is a group 
of maybe four or five relatively straightforward measures: 
improve pumps and motors and variable speed drives. Those 
typically would have a payback of less than five years, and a 
lot of times they are going to be one year or less even. I 
think Mr. Zelenka pointed out that oftentimes these things will 
pay back in an few months.
    And so, I think it is safe to say they definitely pay back 
within the lifetime of the upgrade, and often within two, 
three, four years they are generating a positive return to 
energy savings. You have paid off the additional capital cost, 
and the energy saving are just accruing to the organization.
    Mr. Boozman. Right.
    I am sorry, mister. We will get back to you in a second.
    One of the things you said, the thing that most operators 
are chasing are the water discharge permits.
    Mr. Brown. Correct.
    Mr. Boozman. That is the number thing.
    Mr. Brown. Right.
    Mr. Boozman. Ms. Hatcher, in going down, when we are 
looking at, especially as we get into getting more and more 
nutrients out, getting more and more aggressive, do we look?
    When we are doing those permits, do we look?
    Say, and again these are just numbers, but if you are going 
as far as phosphorus from one part down to a half a part to a 
tenth, do we consider the value to the stream versus the energy 
requirement and the fossil fuels and all that stuff that it 
takes to go from a half to a tenth?
    And then as we go into these, really being very, very 
aggressive, strategies, when you do your permitting, and I 
think the ENERGY STAR program is a wonderful program. I commend 
you on that. But when we do our permitting, do you all have an 
ENERGY STAR program of your own in considering the permitting 
process?
    I would challenge you, that I think you need to do that.
    Ms. Hatcher. Thank you for the question.
    As an employee of the Office of Air and Radiation, I am not 
part of the EPA's Office of Water permitting process.
    Mr. Boozman. Well, standing from the side and just looking 
in.
    [Laughter.]
    Ms. Hatcher. I still can't answer that question, actually. 
I don't know the answer to that.
    Mr. Boozman. Yes, sir.
    Mr. Mehan. No.
    Mr. Boozman. But that would make sense, wouldn't it?
    Mr. Mehan. No. Basically, when you go for your Clean Water 
Act permit, the NPDES permit, you either have to comply with 
the technology-based standard for any given pollutant or 
parameter or for a water quality-based standard if you have 
already achieved or reached the technology, implemented the 
technology required, previously.
    In fact, this is a hot issue, as you are obviously aware, 
with the whole idea of nutrients, nitrogen and phosphorus, 
because that is a huge issue in this Country.
    And we really don't have, with an exception of, say, the 
Chesapeake Bay or maybe phosphorus in some freshwater systems. 
We are just beginning to get into the development of good 
technical criteria for nutrient water quality standards, and 
that will drive up costs.
    Hence, that is why I am a big fan of nonstructural best 
management practices. It is easier to fence animals out of 
streams, reforest a riparian corridor, change management 
practices for the use of fertilizer on the land at a fraction 
of the cost, even if you are paying farmers to do this, than to 
build a gigantic black box at the end of the pipe and run up 
your energy costs.
    So, definitely, ideally, we are going to have to move to a 
situation where we sort of have a comprehensive evaluation of 
all the ramifications of a permitting number.
    Mr. Boozman. Mr. Zelenka?
    Mr. Zelenka. Yes. Again, in our report, we had a checklist 
of 16 simple things that you can look at.
    Let me give you three examples that we did at Gresham where 
we changed their medium bubble diffusers to fine bubble 
diffusers, a three-year payback. We put in premium efficiency 
motors, 0.7 years payback. And the best one was we reduced the 
operating pressure within the system and it had a 0.1 year 
payback. They actually implemented that before we finalized the 
report because it was such a simple thing to do, just 
operationally, and so easily done.
    So there are quite a few things that can be done that are 
very cost-effective.
    Mr. Boozman. Thank you very much.
    Thank you, Madam Chair.
    Think ENERGY STAR for EPA.
    Ms. Johnson. Thank you very much.
    Ms. Hirono.
    Ms. Hirono. Thank you, Madam Chair.
    I would like to thank the testifiers for providing some 
information on our wastewater issues that I wasn't particularly 
aware of, especially the fact that our wastewater treatment 
facilities use so much energy.
    In particular, Mr. Brown, you noted in your testimony that 
the trend is for the EPA basically to require more and higher 
treatment levels in our municipal wastewater treatment 
facilities. And to the extent that those are really energy 
users, it seems to go against what we are trying to do today or 
what we are trying to address today.
    I particularly noted this because the City and County of 
Honolulu without getting into specifics, has been the subject 
of a lawsuit involving our treatment facility, and because the 
EPA has required that they go to a higher level of treatment it 
is going to cost us hundreds of millions of dollars. And there 
is a question as to whether or not if we had put in place the 
kinds of thinking, that kind of analysis that we are trying to 
promote here, that perhaps the outcome would have been 
different.
    And so, that is just sort of an introduction to my interest 
in this subject.
    Mr. Mehan, you noted that you would hope that the EPA, 
specifically the Office of Water and Enforcement and Compliance 
Assistance, would incorporate more of these kinds of analysis 
in their enforcement activities. Is this the entity that 
regulates wastewater treatment facilities also?
    Mr. Mehan. Basically, this issue of trying to allow a 
permitted wastewater system to use low impact development or 
green infrastructure type approaches does get involved with 
permitting and enforcement issues.
    The Office of Water at EPA is sort of the main supervisor 
of all the permitting systems, both at the Federal and State 
level where States have delegated authority, but at the 
enforcement side that is in the Office of Enforcement and 
Compliance Assistance. So their office is at the same place in 
the organizational chart, side by side.
    The point I tried to make in the written testimony was that 
we have one case that I am aware of, Portland, Oregon, where 
they have actually incorporated low impact development and 
green infrastructure in their long-term control plan, which is 
essential for combined sewer overflow compliance.
    We need to see that become more regular. It ought to be in 
more long-term control plans, but it shouldn't be in consent 
decrees which are enforcement tools.
    We need to develop a way to evaluate these things with some 
assurance that we could incorporate them into a permit. So we 
don't necessarily have to make it an enforcement matter but a 
permitting matter.
    The good news is there is an agreement signed between the 
Office of Water and the Office of Enforcement and Compliance 
Assistance to begin to pursue this whole issue of green 
infrastructure and low impact development in a more sustained 
fashion, and I am hopeful over time.
    I am aware of a few municipalities that are trying to work 
through regional offices to do this as a permitting matter 
rather than as an enforcement or consent decree matter. So I am 
hopeful that over time we are going to see low impact 
development and green infrastructure become more routine at the 
permitting level, not just at the enforcement level.
    Ms. Hirono. Thank you for that, but I wasn't clear on 
whether this particular office within EPA is the entity that 
enforces, for example, the Clean Water Act.
    Mr. Mehan. The Office of Water is in charge of implementing 
the Clean Water Act and the Safe Drinking Water Act, but the 
Office of Enforcement does the enforcement. Several years back, 
what, a decade and a half ago, the enforcement functions were 
broken out of the Air Office, the Water Office, the Superfund 
Office, and that is a separate office of equal weight or equal 
standing, independent of those line programs.
    Ms. Hirono. I think that raises the point that in the 
Transportation and Infrastructure Committee we are spending a 
lot more time now trying to get people to talk to each other so 
that we are all going in the same direction on the same page.
    EPA is a very large organization, and I hope that these 
kinds of approaches. And, as Mr. Fahlund said, inertia is a 
huge element going through not just our administrative 
agencies, but a lot of people don't like to make changes in 
their individual lives either.
    But whatever we can do to promote interagency discussions 
and moving us toward in our enforcement, in our permitting, to 
incorporate these kinds of energy-saving and holistic analyses 
to decision-making.
    I hope that in your testimony, which I didn't have a chance 
to completely read, that you have some specific ideas for how 
Congress can promote these kinds of approaches through our 
authorizing legislation.
    Thank you, Madam Chair.
    Ms. Johnson. Thank you.
    The Chair recognizes Mr. Baird.
    Mr. Baird.
    Mr. Baird. I thank the Chair, and I thank our witnesses.
    I have spent an awful lot of time on the issue of global 
warming and related phenomena. I just want to share a couple of 
ideas and then get your input.
    First of all, I think our wording has been, unfortunately, 
wrong in terms of describing climate change and global warming. 
Warming is something that is nice. I like to be warm. Change is 
what we elected President Obama on a platform of.
    The reality of what we are dealing with is something much 
more serious. It is lethal overheating of the planet, 
deoxygenation of the atmosphere and the acidification of the 
oceans.
    If a doctor said to you, you have mildly accelerated 
cellular growth, you could call that cancer. But cancer gets 
your attention. Accelerated growth sounds like kind of a good 
thing.
    Then, on the cure side, we have been vastly mild in our 
response.
    If that doctor said you have accelerated cellular growth 
and, oh, by the way, as soon as we can come up with an 
international protocol we will try to reduce that growth by 
2050, you might just say, you know, Doctor, if I have cancer, I 
would kind of like to get that treated right quick.
    Now the reason I say that is because I am particularly 
concerned about oceans, and this is relevant to your work and 
today's testimony. The combination of acidification of our 
oceans, dead zones, harmful algae blooms, invasive species, et 
cetera, all of which are related to the water that we put into 
our system, I think has a real possibility of wiping out the 
oceans. And we need to talk about that at a much greater level 
than we have.
    I mentioned earlier the issue of behavior change. On energy 
consumption, many people have in their minds some thoughts of 
things they can do to reduce energy output or energy 
consumption and why that might be beneficial. We don't tend to 
do that in terms of water.
    What is the impact, for example, on your ability to clean 
water when people flush everything down the toilet and the 
drain and use chemical cleaners to clean it?
    What might we do with how we wash our cars, et cetera?
    I just want to open that topic up and hear your feedback 
about what can we do to make a national effort to save our 
oceans, improve our clean water and save energy in the process. 
I will just open that up.
    Ms. Brown. You have brought up an extremely complex issue.
    My plant is on Long Island Sound. I am concerned about sea 
level rise inundating my plant down the road. So that is a 
major concern that I have.
    But we are also required to remove nitrogen because of the 
eutrophication problems in Long Island Sound, and the cost of 
removing nitrogen is very high.
    Now, in Connecticut we have a nitrogen trading program, and 
this past year I made $943,000 selling nitrogen credits. So I 
got some of the money back that it costs me, and it is a very 
good program based on the TMDL of Long Island Sound.
    But it is an extremely complex issue where we need to treat 
water for water quality, but there is a cost associated with 
that treatment. It is not easy.
    We have seen a reduction in our flow coming into our 
treatment plant because of water conservation out in the city, 
but it doesn't mean that there is less pollutants coming into 
the treatment plant too, and that is something to bear in mind.
    We may save some money in pumping the water, but there is 
still a certain amount of waste that has to be treated. You are 
just making it more and more concentrated as it goes in.
    So it is a hugely complex issue where you are trying to 
balance the good of the environment in so many ways: the good 
of the environment by energy conservation, the good of the 
environment by treating the waste to the level that you need to 
protect the flora and fauna out in the receiving waters.
    Mr. Fahlund. Congressman, my organization obviously cares 
about how to educate or wants to educate consumers as to what 
they can do to contribute to ensuring that we have a 
sustainable supply of water.
    And I would add to your list in terms of looking at the 
climate crisis. I think water is where most Americans are going 
to feel. Freshwater is where most Americans are going to feel 
the effects of climate change first and worst, whether too much 
or too little, probably some of both in any given location.
    We put together a report focused in the southeastern United 
States but that really could be applicable anywhere in the 
United States that identifies nine policies and practices that 
citizens and localities can undertake to reduce their water 
consumption. Again, I do think that that has an added benefit 
not only on the supply side but also on the wastewater 
treatment side.
    We have also undertaken to educate citizens and 
municipalities and utilities about how they can implement some 
of these stormwater measures, these green infrastructure 
measures right there in their own homes. Whether that is trying 
to keep as much as that rainwater onsite as they can during 
storm events, these are things that can be done by individual 
citizens particularly if they are provided some incentives to 
do so from utilities or from municipalities. Prince Georges 
County, in fact, was one of the early adopters of this kind of 
an approach and led some of the innovation in this arena.
    So we are doing what we can to educate the public, but I 
think what we need to do is work together with industry and 
others to try to further that kind of outreach and, hopefully, 
advance the investment in these technologies.
    Ms. Johnson. Thank you very much.
    Mr. Taylor.
    Mr. Taylor. Thank you, Madam Chairman.
    Mr. McLean, I am curious. I am going back a couple of 
decades now, but it is my understanding that the EPA paid a Dr. 
Wolverton down at the Stennis Space Center to come up with a 
system, and the idea was to try to reuse the water on the space 
shuttle in a closed system. So he had come up and developed an 
anaerobic stage or aerobic stage and then a plant and gravel 
filter for the last stage where the bacteria that attach itself 
to the gravel did the tertiary treatment.
    I thought it showed a lot of promise back then. Obviously, 
with cheap energy, the tendency was at the time to just keep 
building plants with the aerators and using a lot of energy 
because energy was cheap.
    What, if anything, became of that research because I don't 
know that anything ever became of it?
    Mr. McLean. I am going to deflect and see if Tracy has been 
listening to your question.
    Mr. Taylor. There was a guy named Wolverton. His work was 
done at the Stennis Space Center. He was under an EPA contract, 
and he worked on that project for several years. And from what 
I read back then when I was a city councilman and spent time on 
wastewater matters, it made a lot of sense.
    The engineers at the time said energy is cheap. Aerators 
work. Aerators use less square footage, footprint, and that was 
the way to go.
    Now that we are concerned about energy costs, what, if 
anything, has become of that research?
    Mr. McLean. Okay. I am not familiar with the research or 
what may have become of it.
    Tracy was at EPA, well, after that, but may know how that 
concept was carried forward.
    Mr. Mehan. Congressman, I am not familiar with the study 
that you are referencing. I will make a generic comment that 
the development of membrane technologies.
    Mr. Taylor. This wasn't membrane. This was just simple 
gravel and sand. The water had to filter through it much like 
on your swimming pool.
    Mr. Mehan. That, I can't.
    Mr. Taylor. And the bacteria that attached to it created 
the tertiary treatment because, guys, I just did a quick read. 
If I was a professor, you all would be in trouble for 
plagiarism. I am seeing the same thing over and over in almost 
every one of these reports.
    And the other thing that I am not hearing any of you talk 
about is land treatment. Now I realize that is not going to 
work for the large. It is not going to work for Long Island. 
That is not going to work for New York City. But for a great 
many of our cities where there are green spaces nearby, that 
seems to me again a proven technology that I don't see any of 
you. I haven't made it to the last one, but that I don't see 
any of you talking about.
    Yes, ma'am, Ms. Brown.
    Ms. Brown. There is land treatment that is used at many 
small treatment plants. In fact, some treatment plants have 
actually gone to using various plants like hyacinths and 
duckweed in order to absorb nutrients.
    Mr. Taylor. Particularly mercury, if I am not mistaken.
    Ms. Brown. That reduces the cost of treating nutrients. 
That is great as you mentioned, and you recognize that it is 
good for small treatment plants.
    Unfortunately, the way the biological process works within 
the treatment plant is you need to give them air through the 
aeration system. But over the past several years, there has 
been a lot of improvements in how we deliver that air. I think 
one of these gentlemen mentioned going to fine bubble 
diffusers, and that fine bubble has reduced energy costs at 
treatment plants, along with having computer controls that 
monitor the level of oxygen.
    But as far as treating water in order to make it reusable, 
I do not think, and I don't know that research, but the level 
of treatment that you mentioned with just the bacteria 
attaching to a substrait, a rock or something.
    Mr. Taylor. Well, it was actually three stages. He had an 
anaerobic stage, then to an aerobic stage, the last stage was a 
sand and gravel filter with plants in there to pick up some of 
the heavy metals.
    Ms. Brown. Sure. You would actually have to go beyond that 
if you wanted to reuse the water. For example, in New York 
State----
    Mr. Taylor. No, no. Again, this was for a closed system on 
a spaceship. What I am talking about now is wastewater 
treatment. Using the same system but for wastewater treatment, 
get it clean enough to go back into the streams.
    Mr. Brown. Right. Yes, and you could do that very 
definitely through that kind of a system, and we do that 
already. Many plants have sand filtration. So they go through 
the same stages that you mentioned, and they go through sand 
filters, and then that is discharged to the environment in a 
very clean stage.
    Mr. Taylor. As a matter of curiosity, I am not trying to 
bust anybody's chops, but I did not see that mentioned in any 
of these proposals, and I am just curious why.
    Mr. Brown. That technology was commercialized under the 
trade name, the Living System, and actually the EPA Water 
Office has a fact sheet on their web site about it. That was 
several years ago. I think you mentioned 15, 20 years ago. I 
don't think it ever reached commercial viability.
    But I think, more generally, I would classify that as what 
I would call a natural treatment system. So there are 
conventional mechanical treatment systems which is most of what 
we talked about today, which are these highly capital-intensive 
engineered systems that look more like once-through industrial 
processes versus natural systems that use natural processes, 
plants for oxygen production and things like that.
    There are a variety of these concepts that have been 
developed. There is, for instance, a technology called an 
Advanced Integrated Wastewater Pond System which was developed 
at U.C.-Berkeley that uses a series of stages including algae 
ponds. The algae produces oxygen which is used in the secondary 
treatment. It is an integrated system that does biogas 
production, and it produces pretty much reusable quality water 
at the end, and it mostly runs off of solar energy that the 
algae collect.
    So there are various systems under this general 
classification of natural systems. Constructive wetlands is 
another type of system that people use not generally for 
primary or secondary treatment but for water polishing to 
remove the final suspended solids.
    Mr. Taylor. Thank you, Madam Chair.
    Ms. Johnson. Thank you very much.
    The Chair recognizes Ms. Norton and also asks if you will 
take the Chair for the final question period.
    Ms. Norton. [Presiding.] While I wasn't here, I am familiar 
with your approach, and I particularly appreciate the 
complexity with which you view the problem before us.
    I have a question that is less complex although I have to 
say that the integrated approach, the understanding that the 
planet is of a piece. You can't save one part of it without 
saving the other seems to me lost on many of us, even those of 
us who are committed environmentalists.
    Just to cite one example where the Congress is embedded and 
indeed subsidizing, the issue of ethanol, for example, most 
people call that food. We thought we were making some kind of 
progressive change to make it fuel, and look what it has done 
to the price of corn and the price of food around the world.
    And not only have we encouraged it, I don't even know how 
we are going to get out of it because we have subsidized 
farmers and it is profitable.
    The complexity of the problem is what interests me most, 
and my own sense is that some combination of innovation or 
technology in greening may lead us to an acceptable answer. I 
certainly don't see any society, even in our shall we call it 
growth period, willing to make even the smallest sacrifice on 
behalf of the environment. So I just think we are a long way 
from understanding how to grapple it.
    I want to ask you about one actor. Of course, I represent 
the Nation's Capital. We have here the largest wastewater 
treatment facility in the world. It handles treatment for 
Maryland, for the District of Columbia. The Federal Government 
owns 70 percent of our waterfront.
    Indeed, the sewer system, which is infamous for stormwater 
overflow, was built by the Corps of Engineers more than 100 
years ago. And I get a little bit of money each year as they 
try to move toward one of the systems I think you may even have 
discussed where they gather this water in big bins and the 
like.
    But if you think about the culprit here, it turns out to be 
the Federal Government. It built the system. Its facilities and 
runoff are at least as responsible.
    The Anacostia is the most polluted river, and it starts in 
Maryland. So there are other actors as well, believe me.
    But when you talk about large actors, they are the Federal 
buildings that are characteristic of the Federal presence here 
and in Maryland.
    Oh, this question is posed for the EPA representatives, but 
I would be please to hear any one of you hear any of comment on 
it.
    I am sure the Federal Government has responsibility around 
the Nation but nothing like it does in this region.
    So how does an enforcement agency, and I heard you say 
perhaps enforcement is not the only approach, hold such a large 
and important actor, fill in the blanks--it could be a State 
actor someplace--accountable for stormwater runoff and energy 
use reductions with a facility that deeply implicates it?
    I should let you know that the entire downtown area of 
Washington, later on, when they built stormwater facilities for 
much of the city, you don't have the same system but because 
this is so old. Essentially, what we are talking about, the 
overflow, comes from places like where we are sitting now, 
downtown in the Federal buildings. And, of course, the Federal 
Government is the ratepayer.
    If you have a large actor like that, no matter what you 
convince your smaller actors including residents to do, you 
have this big elephant there. How do you integrate it into your 
strategy?
    Don't all speak at once. Yes.
    Mr. Fahlund. I would be happy to respond to that.
    There was actually a provision in the last Energy Bill that 
put requirements on all new Federal facilities to maintain sort 
of a predevelopment hydrology. So, in other words, to not 
further contribute to the imperviousness within its footprint.
    And, unfortunately, the implementation of that provision 
has not really moved forward, and we are certainly looking 
forward to the EPA----
    Ms. Norton. I am sorry. The provision does what?
    Mr. Fahlund. What it does is it requires new Federal 
facilities to maintain water onsite, maintain stormwater 
onsite, which of course is really the contributing factor to 
the combined sewer overflow problems you are describing. It is 
that stormwater that rushes off of the hard surfaces. And it 
requires them to maintain that onsite.
    And so, that is a provision that really hasn't been----
    Ms. Norton. Onsite? I don't understand how that will work.
    Mr. Fahlund. So, essentially, what it would require would 
be things like green roofs. It would incentivize and require.
    Ms. Norton. And the Federal Government is looking. We have 
asked the Federal Government to look at green roofs around the 
region.
    Indeed, they tried the notion of one on the Rayburn 
Building and said it wouldn't take a green roof, something 
about the way it was built, it wouldn't. So I guess we are 
going to have to abide runoff that comes from where we are 
sitting now.
    But go ahead.
    It would, of course, work, I am sure, in the newer 
buildings.
    Mr. Fahlund. I don't believe that this provision affects 
existing facilities, but it is only for new construction.
    Ms. Norton. Yes, in any case.
    Mr. Fahlund. But I do think that there needs to be a more 
concerted effort, and perhaps the Office of Water at EPA can 
help lead an effort in this regard to audit the Federal 
buildings, not just in D.C. but around the Country to really 
try to get at their contribution to the problem.
    Ms. Norton. Is there an EPA witness here?
    Mr. McLean. I think what you have identified, underlying 
it, is one of the problems we haven't talked about as directly. 
We talked about all the technology and all the things you can 
do to solve these problems. I think the underlying problem is 
people, organizations, relationships that need to be challenged 
to get things done.
    I am from the Air Office. I cover a lot of issues. In the 
last three months ago, we entered into an MOU with our Water 
Office specifically to connect our energy efficiency work with 
the Water Office's work on water and wastewater. That is why I 
am here today, because we are trying to bring our understanding 
of how to promote energy efficiency into the water and 
wastewater treatment area.
    And I deal with climate and other issues, but I don't get 
into water permitting. I don't even do in the air permitting 
area.
    I do know that the challenges within the Federal Government 
are significant. To be able to get other agencies within the 
Federal Government to comply with EPA directives that apply to 
everyone else is a challenge.
    And so, you have raised a fundamental sort of institutional 
challenge in how to get things done, and I recognize that and 
will take back that concern. But I think it has to be dealt 
with.
    Ms. Norton. The stovepiping, of course, and I can 
understand why. It is very complex, and we are all divided into 
these various units.
    But, of course, I am encouraged by what all of you are 
saying essentially about the need for energy-efficient and 
water-efficient technologies as well as management practices to 
get at the roots of this. It is kind of a truism as far as I am 
concerned.
    If it is obviously the way to go, you don't want to create 
more problems by adopting one form, although sometimes you 
don't even know until we have adopted. I don't think people 
understood anything about ethanol except it was a substitute, 
for example, for gasoline.
    But assuming you do know something, do you find that there 
are any real or even perceived barriers to going straight 
forward with technologies that are energy-efficient and water-
efficient today?
    Are there barriers that you see for moving ahead, real or 
perceived, on the usage of new management practices and new 
technologies in order to accomplish these ends?
    Mr. McLean. Raising that issue, I think, is important. 
Several of us have identified some of the management tools, and 
the part that my office has played in here is to recognize that 
the people who make decisions at wastewater treatment plants in 
municipal governments and in industry need to have the 
information in front of them to make wiser decisions.
    We all recognize that there are efficiency improvements, 10 
to 20 percent or more. They could go 30, 50 percent. But that 
information has to be presented to people who make the 
decisions.
    What we have tried to do in our energy efficiency work for 
the last 15 years is to crack that barrier, that information 
barrier and bring the information to the decision-makers in 
these organizations so that they can make the wiser choices, 
and we think there is a fair amount of efficiencies that can be 
gotten simply through the right people getting the right 
information.
    So we use our rating tools, and we use our management tools 
to bring that to people's attention. When that is in front of 
people, we find that there is a considerable amount of 
efficiency that people can undertake.
    Now it can get more and more expensive as you go up the 
cost curve, but we think there are relatively cheap things that 
people can do and that was identified.
    The other issue that was mentioned is that there are 
hundreds of facilities out there. They are all different in 
some way, and so you can't have a one size fits all solution 
that says everybody must do this or everybody must do that. But 
if everybody looks at what they need and they analyze it and 
they measure it and then they measure the results, we feel that 
that is the path that we need to get people on to address this 
issue.
    Ms. Norton. Well, the fact that in your testimony you said 
there were 100 wastewater facilities conducting these energy 
audits suggest that they heard about it somehow or the other. 
Now that is where the Federal Government comes in.
    I don't understand how we expect people. I accept that 
there are very different kinds of systems out here. I just talk 
about mine. I don't accept that they cannot be classified into 
various groupings and given guidance from somebody who has all 
that information, and as far as I am concerned it is the 
Federal Government.
    Say, if you have this kind of facility, here is the latest 
kind of technology you should be using or moving forward. You 
have another kind. There can't be so many that the Federal 
Government couldn't do that at the very least.
    Yes, Ms. Hatcher.
    Ms. Hatcher. One thing that looks like it may change with 
the stimulus is the dynamic of the traditional barrier of 
access to capital, and I think that that is one.
    When you think about this in terms of the road to energy 
efficiency for a wastewater treatment plant, we, through 
voluntary initiatives, have been trying to encourage market 
transformation. By that what I mean is we try to educate the 
wastewater treatment plant managers and the local governments 
about energy efficiency opportunities through a whole host of 
means, generally ones that are cost-effective for us to employ 
from the Federal Government.
    We are not out there doing walk-through energy audits in 
wastewater treatment plants in terms of the way we use EPA 
funds. What we do is we may have a web cast or a local workshop 
where people can come and learn about those opportunities. We 
teach people what the opportunities are, and then it is up to 
them to go to take the initiative, to then make the changes 
that are necessary.
    In terms of financing barriers, one of the perceived 
barriers is that often people don't believe they have access to 
capital. They are not sure whether the SRF process is something 
that they can then use to do energy efficiency projects. Also, 
they are not necessarily sure they have it in their capital 
budgets to the do the energy efficiency improvements that are 
needed.
    And then an additional one is that transferring from the 
buildings market the successful approach of using energy 
services companies is something that has been a growing thing 
in the wastewater industry, the use of energy services 
companies to help reduce the barrier of access to capital.
    One of the things that I think is important to think about 
as you move forward is the timing of which, in terms of you are 
trying to increase the rate at which energy efficiency and 
renewable energy happens in wastewater treatment plants. One 
thing that these organizations need to be ready and able to do 
is receive and manage the funds and so forth and understand how 
to use them in the context of good energy management. And so, 
in terms of the organizations and one of the barriers they may 
have is lack of staff.
    So one would need to be able to, within that organization, 
use resources wisely and then choose the opportunities that are 
the right ones to make energy efficiency improvements and then 
measure those results effectively in a low cost manner and be 
able to demonstrate that the resources have been used wisely.
    So, in terms of the traditional barriers, the picture would 
be potentially changing if there was increased capital for 
these projects.
    Ms. Norton. That is the granddaddy of the wastewater 
treatment problems.
    Yes, Ms. Brown.
    Ms. Brown. I just wanted to say and follow up on what Ms. 
Hatcher said about education in the wastewater industry and 
just mention that the Water Environment Federation is just 
about ready to release a manual of practice on energy 
efficiency and conservation in wastewater treatment plants. 
That will go a long way in educating, I think, our sector on 
what we can do.
    And then, with the potential of having capital from the 
stimulus package, we may be able to make great progress in the 
next couple of years on this subject.
    Ms. Norton. Yes, Mr. Zelenka.
    Mr. Zelenka. I look at it as a continuum. When the water is 
being used, so at the end use, low flow plant standards can be 
federally done. Conservation programs, getting people to use 
less water, so less of it goes through the treatment plant, and 
then also stormwater management alternatives like bioswales 
onsite that take the water and clean it before it goes into the 
systems, naturally and inexpensively. Green roofs are another 
example of that.
    But then when you get to the plant, then there is energy 
efficiency and renewables, and what is needed in that regard is 
targeted programs that get people to have access to audits that 
give them the information, the calculations and money to pay 
for those audits, so that the operators who don't, typically. 
They are worried about meeting their permit requirements. They 
are not worried about meeting their energy requirements. So, 
having a program specifically targeted towards energy is really 
important.
    And then access to the capital, as has already been 
mentioned, and access to tax credits that municipals can't take 
advantage of are really important.
    Ms. Norton. Well, I don't know. The new administration may 
be right in having a czar, some kind of environmental czar. I 
don't know how you are going to get all these pieces together. 
Otherwise, let's see if that works.
    Before I ask if there are other Members who might have 
further comments, I will give you a primitive example. You 
might have read in the newspaper that they found lead in 
children here because of a lead pipe problem that developed 
here.
    And talk about information. The authorities not only did 
not provide information. The authorities, I think it is fair to 
say, covered up information. It was an infamous notion.
    Of course, then when we uncovered it they assured us that, 
in any case, there were no issues. Well, now, the CDC has found 
that there are elevated levels of lead in these children.
    But this is a very interesting technology example. 
Immediately, of course, people began to change their lead 
pipes.
    Now consider this: There is the lead pipe that you are 
responsible for on your premises. Then there is the part that 
the jurisdiction is responsible for. So, as if on automatic 
pilot, the treatment plant began to change their part. Well, 
what good is that if the whole system isn't changed?
    And then of course, there are some faucets that would need 
to be changed. I mean the children were very young children and 
those are the people for whom that is a real danger.
    However, we also discovered that the water treatment plant 
was using--now I do not recall the substance and it has been 
used all over the United States--a substance, a chemical that 
got rid of the lead and therefore may well be doing the job, 
had it not been for this problem that was uncovered.
    So we are confronted now with, since we don't have any 
adverse effects so far as we know of from this chemical, 
whether or not we should be doing lead pipe changes at all, 
hugely expensive. So that if the jurisdiction decides that is 
where it is putting its environmental or stormwater overflow 
dollar, it is not going to be putting it somewhere else.
    But, again, if the Federal Government. And for all the good 
that all of you do where you are, it does seem to me that there 
has to be a central actor here that sorts out the available 
issues, warns people, for example, as even this jurisdiction, 
the heart of the Nation's Capital, wasn't about whether or not 
you should think twice before simply going about changing the 
lead pipes at one part and not the other.
    You have to make sure you ask the owner, of course, whether 
or not she is willing to change as well. But I don't see how 
you can expect to get anywhere on these issues as long as each 
jurisdiction is trying to figure it out for itself.
    There is a vote that is going to be coming up.
    My good friend, Mrs. Napolitano, has a question, I 
understand.
    Mrs. Napolitano. Thank you, Madam Chair.
    Listening to this is really, really good, and you are right 
on point in regard to the lead issue.
    Is there any centralized information dissemination to 
general public, to agencies, to wastewater treatments, that 
they can go and be able to get new technology, as was being 
pointed out by the Chair, where they may be able to tap into 
and be able to get that information?
    Ms. Brown. The Water Environment Federation, as I 
mentioned, has 35,000 members, many of which are operators, 
utility managers and consulting engineers. We continually 
update the information that is available.
    Mrs. Napolitano. Thank you for that answer. The problem is 
the general public doesn't know that. The constituency doesn't 
know that. So when somebody has a problem with lead, they don't 
know where to go.
    And there is an issue of educating the general public in 
regard to the low-flow toilets, for instance. Or, just not a 
couple of years ago, in my Water Subcommittee, we granted a 
pilot to catch rainwater on the school district grounds, on 
parkland. So there are many things that are out there that 
people are not aware of that are not being shared.
    And I agree with the Chair. There has to be somebody that 
can really look at all these things and be able to not wrap 
around totally, but be able to capture, to be able to 
disseminate, inform and educate the public. That is one.
    The second one is one of the things you haven't touched on 
wastewater is in the ports where boats and commercial ships and 
tourist ships come in, and they dump their wastewater in our 
oceans.
    Now thanks to EPA in the Western Region with the former 
director, Mr. Wayne Nastri, they are forcing L.A. ports to be 
able to have those people recycle that wastewater, and that is 
a large part of it.
    What is there that we are not connecting, again, being able 
to wrap around some of these issues that are out there that we 
are not dealing with because the general public doesn't know 
that these issues exist?
    Access to capital, we also suggested in a letter to the 
Committee that the U.S. Territories and Hawaii be given some 
capital assistance to be able to work on their wastewater 
treatment plants which they are, sadly, lacking in.
    So I mean those are all great big issues that we don't even 
consider. We are only looking at our local community issues but 
not at other issues that also affect our own citizens.
    We need to have more information. We need to be able to 
know where to access.
    Anybody that wants to address any of it, please, do so.
    Yes, sir.
    Mr. Fahlund. In my testimony, I recommended that the 
Committee really exercise its oversight authority over EPA and 
really try in a partnership, but also in a bit of a leading 
manner, really try to get EPA in a position where it is 
empowered to actually provide that kind of information, to be a 
central source, a resource for any number of these issues.
    And I think that it is really valuable and important for 
the EPA to start to actually figure out ways to break down some 
of the silos that they are in. Those silos are there for lots 
of reasons, and it is quite understandable. Congress has silos. 
My organization has silos.
    Mrs. Napolitano. One of the issues that I find is we may do 
very well with the organizations that you represent, but 
sometimes we don't even get this information and go after 
enforcement with businesses who are actually big polluters, and 
we do not actually.
    I hear this in my district from some of the Federal 
marshals, that they cannot go in and--how would I say--not 
heavy-handed, but enforce the rules and regulations in place 
now. So that also has to do a little bit of changing of 
mindset, if you will.
    Anybody else? No?
    Thank you very much, Madam Chair.
    Ms. Norton. Thank you very much.
    I am about to close the hearing.
    As I listen to you, it seems to me that a lot of the work 
is already being done. Maybe the Federal Government should go 
on your web sites--I don't know what to do--and then to just 
simply distribute the information from there.
    It is very frustrating to know that there are ways to do 
it. Now when you hear it from the Federal Government, it has a 
kind imprimatur that I think may be necessary.
    I am all for enforcement. Indeed, I think one of the most 
important things we do for the overall environment is we who 
insist upon strong enforcement.
    But I think your testimony has shown that when we are 
dealing with the entire planet we need to move thought in 
advance of enforcement.
    Yes, you can get a consent decree and look what that means. 
That means all at one time somebody has come up with a whole 
lot of money to deal with a problem that has gone so far that 
we had to, as it were, send the EPA cops after you and, yes, 
then you will begin to comply.
    When we are all in the same boat when it comes to trying to 
figure out what to do, it does seem to me that, while keeping 
enforcement as strong and stronger certainly than it has been, 
there is a great unknown out there that faces every 
jurisdiction. It seems to me the Federal Government has to 
consult with those such as yourselves who have been trying to 
figure this out so that we can be honest with jurisdictions 
about what we know and don't know, about what they perhaps may 
want to be cautious about.
    And then perhaps get what I do think we need. We do need 
experiments in real time. We do need to see how some of these 
things work.
    But, that said, we certainly don't need people going off on 
something that absolutely does not work such as the lead pipe 
example where the information was right there, for example.
    And I am not sure about the ethanol example, whether it was 
there or not, but it is certainly there now. I tell you if you 
try to unwind that, unwind that and get it back, you are going 
to have a very hard time because people are making a lot of 
money eating fuel.
    I appreciate that the Chair of the Subcommittee has looked 
to you first as the first. I guess this is the first. This is 
the first session of our Subcommittee, because I think it 
argues well for how we are going to approach the very important 
issues that you have left us with.
    And I thank you again on behalf of the Chair and on behalf 
of the entire Subcommittee.
    [Whereupon, at 12:28 p.m., the Subcommittee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







</pre></body></html>
